<html>
<title> - ONDCP REAUTHORIZATION: THE HIGH INTENSITY DRUG TRAFFICKING AREAS PROGRAM AND CTAC</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




   ONDCP REAUTHORIZATION: THE HIGH INTENSITY DRUG TRAFFICKING AREAS 
                            PROGRAM AND CTAC

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 8, 2003

                               __________

                           Serial No. 108-52

                               __________

       Printed for the use of the Committee on Government Reform



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

89-455              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
        Nicholas Coleman, Professional Staff Member and Counsel
                         Nicole Garrett, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 8, 2003....................................     1
Statement of:
    Burns, Ron, chief, Lakewood, CO Police Department; and Peter 
      Modafferi, Chief of Detectives, Rockland County, NY 
      District Attorney's Office.................................    79
    Burns, Scott, Director, Office of State and Local Affairs, 
      Office of National Drug Control Policy; and Roger Guevara, 
      Chief of Operations, Drug Enforcement Administration.......     7
    McCampbell, Christy, chief, Bureau of Narcotics Enforcement, 
      California Department of Justice; Wayne Wiberg, commander, 
      Narcotics and Gang Investigation Section, Chicago Police 
      Department; Anthony Romano, chief, Organized Crime 
      Division, Baltimore Police Department; and Lieutenant 
      Colonel Steve Moyer, chief, Homeland Defense/Intelligence 
      Bureau, Maryland State Police..............................    40
Letters, statements, etc., submitted for the record by:
    Burns, Ron, chief, Lakewood, CO Police Department, prepared 
      statement of...............................................    81
    Burns, Scott, Director, Office of State and Local Affairs, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................     9
    Guevara, Roger, Chief of Operations, Drug Enforcement 
      Administration, prepared statement of......................    19
    McCampbell, Christy, chief, Bureau of Narcotics Enforcement, 
      California Department of Justice, prepared statement of....    43
    Modafferi, Peter, Chief of Detectives, Rockland County, NY 
      District Attorney's Office, prepared statement of..........    85
    Romano, Anthony, chief, Organized Crime Division, Baltimore 
      Police Department, prepared statement of...................    57
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Wiberg, Wayne, commander, Narcotics and Gang Investigation 
      Section, Chicago Police Department, prepared statement of..    50

 
   ONDCP REAUTHORIZATION: THE HIGH INTENSITY DRUG TRAFFICKING AREAS 
                            PROGRAM AND CTAC

                              ----------                              


                         TUESDAY, APRIL 8, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Carter, 
Ruppersberger, Blackburn, Deal, Bell, and Ose.
    Staff present: Christopher A. Donesa, staff director and 
chief counsel; Nicholas Coleman, professional staff member and 
counsel; John Stanton, congressional fellow; Nicole Garrett, 
clerk; Tony Haywood, minority counsel; and Earley Green, 
minority chief clerk.
    Mr. Souder. Good morning. This is our third hearing on the 
reauthorization of the Office of National Drug Control Policy 
and its programs. Today we will focus on two programs that most 
directly impact State and local law enforcement against drug 
crimes: the High Intensity Drug Trafficking Areas [HIDTA] 
program, and the Counterdrug Technology Assessment Center 
[CTAC].
    Congress originally authorized the HIDTA program in 1988, 
and renewed it in 1993 and 1998. The program provides 
significant financial assistance to State and local law 
enforcement and facilitates strong cooperation among those 
agencies and with Federal law enforcement. That cooperation has 
led to many successes in our efforts to disrupt the market for 
illegal drugs. HIDTA has also been a politically popular 
program, as evidenced by its rapid expansion. The program 
started with five HIDTAs in areas that we would all agree are 
at the heart of the national drug trafficking networks. Over 
time, the program has steadily grown to where it now covers 28 
separate areas and nearly 60 percent of the population.
    While the program unquestionably is a key tool in our 
national drug control strategy, that rapid expansion clearly 
demonstrates that the subcommittee has many issues to consider 
to ensure that the program pursues its original goals, that it 
is accountable, and that it delivers results determined under 
rigorous performance measures. We must also carefully consider 
how to strike the appropriate balance to ensure that the 
program remains predominantly focused on national goals while 
still ensuring that State and local agencies receive a fair 
return for their investments in the program. It is easy to make 
a case for the need to send Federal assistance to the hubs of 
national drug traffic to disrupt the market and keep drugs from 
every city in America. It is much harder to make the case to 
take taxpayer money from Indiana and send it to another State 
if it is used mainly for local projects or if it is not 
effective.
    We will also consider today issues related to legislation 
that Ranking Member Cummings introduced last week to direct 
HIDTA funds to be made available to protect witnesses impacted 
in their neighborhoods by national drug traffic. The bill is 
fittingly named the ``Dawson Family Community Protection Act.'' 
I believe that the unconscionable tragedy that befell the 
Dawson family in Baltimore well demonstrates the need for 
action in this area. As a cosponsor of his bill, I commend Mr. 
Cummings for his leadership and look forward to working closely 
with him on this issue. With limited dollars and great demands 
we will need to work with the Senate and the administration on 
the final amount, but I am committed to the principle that part 
of winning the battle against the drug lords is protecting 
citizens brave enough to stand up to their brutality.
    Today's hearing will also review the Counterdrug Technology 
Assessment Center, which was established in 1990 to oversee and 
coordinate the Federal Government's anti-drug research and 
development. CTAC oversees a number of research programs as 
well as the Technology Transfer Program, which provides drug 
detection and law enforcement technologies to Federal, State 
and local law enforcement. The program is so successful that 
there is a long waiting list for the available technology. I 
hope we can reaffirm our support for the key research programs, 
as well as to try to bolster the TTP program to make the 
equipment better available to our communities.
    We have quite a mix of witnesses with us today, and we 
would especially like to welcome all the representatives of the 
State and local law enforcement community who are joining us 
here at this time. From the administration, on our first panel 
we will hear from Scott Burns, the Deputy Director of the 
Office of National Drug Control Policy for State and Local 
Affairs. From the Drug Enforcement Administration, we will also 
hear from Mr. Roger Guevara, the Chief of Operations.
    Our second panel will focus on HIDTA, and we will hear from 
Christy McCampbell, chief of the California Bureau of Narcotics 
Enforcement and Wayne Wiberg, commander of the Narcotics 
Investigation Section of the Chicago Police Department. From 
Maryland, Maryland State Police Superintendent Ed Norris, and 
Baltimore Police Department Organized Crime Bureau Chief 
Anthony Romano will testify.
    On our third panel, we will focus on CTAC with Chief Ron 
Burns of Lakewood, Colorado Police Department, and Peter 
Modafferi, chief of Detectives for Rockland County, NY, 
District Attorney's Office.
    Again, I thank you all for coming from so many places 
across the country to be here today. We very much look very 
much forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.001
    
    [GRAPHIC] [TIFF OMITTED] T9455.002
    
    [GRAPHIC] [TIFF OMITTED] T9455.003
    
    Mr. Souder. I will now see if any of the other Members have 
an opening statement. Mr. Ruppersberger.
    Mr. Ruppersberger. Yes. Just very quick.
    First, I would like to commend ONDCP for all the work that 
you do. Since 1998 I believe that your efforts to maintain a 
program of such importance to work with the local, State, and 
Federal law enforcement agency has done a lot to do with the 
issue of drugs. We know drugs is probably accountable for about 
90 percent of all of our crime, especially violent crime, and 
the coordination and the teamwork is one of the main avenues 
and ways that we are going to at least put a dent into what is 
going on. So looking forward to your testimony. Thank you.
    Mr. Souder. Congressman Carter.
    OK, I would like to take care of a few procedural matters. 
First, I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record, and that any answers to written questions 
provided by the witnesses also be included in the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, and that all Members be 
permitted to revise and extend their remarks.
    Without objection, it is so ordered.
    Now, as our standard procedure, if Mr. Burns and Mr. 
Guevara will stand, is it our standard procedure to administer 
the oath.
    [Witnesses sworn.]
    Mr. Souder. Thank you both for being here today and for 
your many years of work in these efforts, and we will start 
with Mr. Scott Burns, the director of the Office of National 
Drug Control Policy for State and Local Affairs.

STATEMENTS OF SCOTT BURNS, DIRECTOR, OFFICE OF STATE AND LOCAL 
  AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY; AND ROGER 
 GUEVARA, CHIEF OF OPERATIONS, DRUG ENFORCEMENT ADMINISTRATION

    Mr. Scott Burns. Thank you, Chairman Souder and Congressman 
Ruppersberger, Congressman Carter. It is a pleasure to appear 
before you today to talk about the High Intensity Drug 
Trafficking Area Program [HIDTA], and the Counterdrug 
Technology Assessment Center [CTAC], that are programs under 
the Office of National Drug Control Policy. I would like to 
commend you, Chairman Souder and your staff, and the 
subcommittee for the support that you have given us over the 
years in making the HIDTA program and the CTAC program 
successful arsenals in our efforts to make this problem of 
addiction and trafficking smaller.
    As stated, the HIDTA program began in 1988 with the 
designation of five States. They were initially funded in 1990 
and have grown over the subsequent 15 years to 28 HIDTAs in 
some 43 States. Membership includes some 35 Federal agencies, 
over 100 State agencies, in excess of 1,000 local law 
enforcement agencies participating.
    I believe that the HIDTA program is one of the most 
effective law enforcement and counterdrug tools in the country, 
and I say that because the HIDTA program is one of the, if not 
the only Federal program that does one, what one would think is 
simple, but very important thing, and that is bring together 
Federal, State, and local law enforcement agencies and law 
enforcement leaders in various areas of the country to 
collaborate, to work together, to share information, to use 
their intelligence support centers to make the problem of drug 
addiction and drug trafficking in this country smaller.
    I also believe that under the leadership and direction of 
John Walters, the Director of the Office of National Drug 
Control Policy, over the past 12 months we have made great 
effort to make the HIDTA program better. We have initiated 
performance measurement standards; they have been written, they 
have been drafted, they have been disseminated to the 28 HIDTA 
directors, and we are in the initial process of implementation. 
We have also reorganized the Office of State and Local Affairs 
to provide greater oversight and greater attention to the 
HIDTAs, and we have also, as you well know, joined with the 
Department of Justice in launching the CPOT, or Consolidated 
Priority Organizational Targeting, program in an effort to go 
after the major drug trafficking organizations in this country 
and in the world.
    I have the privilege, and I know that you have visited 
several of the HIDTAs, to work with some of the finest women 
and men in this country. I have found, under the direction of 
Kurt Schmidt, the National HIDTA Director, folks to be 
extremely dedicated from California to Connecticut, and every 
State in between, to getting up each day trying to help in this 
counterdrug effort.
    I am also pleased to speak today on behalf of the 
Counternarcotics Technical Assessment Center [CTAC]. As you 
know, it is this country's chief R&D, or research and 
development, effort in trying to do two corps missions: one, to 
locate, to find, and to develop technologies that will help 
Federal, State, and local law enforcement agencies to do better 
to protect lives of law enforcement folks in the field and to 
allow them to do their missions better; and also through the 
neuroimaging program, which is a project, as you know, to bring 
together our best medical and scientific people in this country 
to study and to research addiction so that some day we will 
fully understand what it is and be able to treat it.
    With that, I would respectfully request that my written 
statements be submitted into the record, and I look forward to 
any questions you may have. Thank you.
    [The prepared statement of Mr. Scott Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.004
    
    [GRAPHIC] [TIFF OMITTED] T9455.005
    
    [GRAPHIC] [TIFF OMITTED] T9455.006
    
    [GRAPHIC] [TIFF OMITTED] T9455.007
    
    [GRAPHIC] [TIFF OMITTED] T9455.008
    
    [GRAPHIC] [TIFF OMITTED] T9455.009
    
    [GRAPHIC] [TIFF OMITTED] T9455.010
    
    [GRAPHIC] [TIFF OMITTED] T9455.011
    
    Mr. Souder. Thank you very much.
    Mr. Guevara.
    Mr. Guevara. Good morning, Chairman Souder and 
distinguished members of this subcommittee. It is a pleasure to 
appear before you today to discuss ONDCP and the High Intensity 
Drug Trafficking Area program which was established by Congress 
over a decade ago. On behalf of Acting Administrator John B. 
Brown III and myself, I want to thank the subcommittee for 
their unwavering support on behalf of the men and women of DEA.
    The HIDTA-funded program is a regional strategy providing 
Federal assistance in coordinating law enforcement efforts at 
the local, State, and Federal level. The program is designed to 
impact on the manufacturing, importation, and distribution 
networks. The HIDTA program complements our mission to destruct 
and dismantle major drug trafficking organizations. By 
leveraging the resources, manpower, and equipment of numerous 
law enforcement entities, we can, and have, achieved tremendous 
success.
    I have benefited from seeing firsthand how a successful 
HIDTA-funded program operates. From 1997 to 1999, I was charged 
with oversight of the HIDTA Southern California Drug Task 
Force. In September 2000, I was promoted to Special Agent in 
Charge of the Caribbean Division in San Juan, Puerto Rico. With 
this promotion came the responsibility of serving as the vice-
chair of the HIDTA executive board for the Puerto Rico and U.S. 
Virgin Islands HIDTA. Difficult decisions had to be made on 
which initiatives to undertake and how best to utilize our 
funds, but our cooperation and collaboration did breed success.
    Federal resource constraints require that DEA continue to 
pursue the cooperative investigative efforts of other Federal, 
State, and local law enforcement officers. There are presently 
18 DEA field divisions, plus the El Paso Intelligence Center 
[EPIC], that participates in the HIDTA-funded programs. This 
includes 48 DEA HIDTA groups supporting 90 initiatives and 
consisting of 527 task force officers. Over 300 DEA special 
agents work with HIDTA initiatives.
    In support of national ONDCP objectives, each HIDTA is 
supposed to consist of an executive board comprised of an equal 
number of Federal, State, and local law enforcement leaders. 
DEA continues to urge that all HIDTA executive boards hold to 
the equal representation requirement mandated by the ONDCP in 
order to yield maximum effectiveness, and we pledge to 
undertake leadership positions whenever the opportunity arises.
    Investigations begin for DEA, including our HIDTA-funded 
task forces, when discovering that larger scope of drug crime 
arrests merits the consolidation of resources. I would like to 
highlight three major programs the administration is 
emphasizing to make the greatest impact on America's drug 
enforcement efforts.
    The first one is the Consolidated Priority Organization 
Targets [CPOTs], which is a single national list of major drug 
trafficking and money laundering organizations. There are 53 
identified international command and control organizations 
representing the most significant drug organizations 
threatening the United States.
    In fiscal year 2002, ONDCP allocated $5.7 million in 
discretionary funds in support of HIDTA-funded initiatives 
targeting CPOTs. DEA fully supports this in keeping with 
HIDTA's mission to target the highest levels of drug 
trafficking groups.
    DEA's Priority Drug Traffic Organization's [PDTO's], 
program is similar to CPOT, but more expansive since it also 
includes local and regional drug organizations significantly 
impacting the drug supply in DEA's 21 nationwide field 
divisions.
    And, finally, the Organized Crime Drug Enforcement Task 
Force [OCDETF], determines connections to related 
investigations nationwide in order to identify and dismantle 
drug trafficking organization. DEA's State and Local Task Force 
and HIDTA-funded groups are engaged as partners with the OCDETF 
program and enforce the effectiveness and success of the OCDETF 
program.
    DEA currently has 30 HIDTA-funded initiatives that are PDTO 
investigations. Eighteen of those are also established as 
OCDETF investigations. Each designated HIDTA has at least one 
intelligence element, usually called an Investigative Support 
Center, which provide tactical investigative and strategic drug 
intelligence to HIDTA-supported task forces. HIDTA ISCs serve 
as hubs for the sharing of drug intelligence among Federal, 
State, and local law enforcement HIDTA-funded participating 
agencies. DEA's commitment to HIDTA shows in the assignment of 
nearly 10 percent of our analytical resources to the HIDTAs. 
But DEA can and should do more. DEA should provide a leadership 
role in all of the HIDTA ISCs.
    HIDTA-funded initiatives should address the most 
significant drug threats. These initiatives must be evaluated 
regularly to ensure that they remain relevant. Oversight of 
HIDTA initiatives is crucial in order to keep within the 
national objectives of ONDCP.
    In conclusion, Mr. Chairman, HIDTA is a concept and not an 
agency. Many participants believe HIDTA is a Federal grant for 
their own use. However, HIDTA is a funding mechanism designed 
to support Federal, State, and local drug investigative 
efforts. This point must be recognized by participating 
agencies in order to pursue a consolidated regional and 
national enforcement objective, as opposed to a fragmented one.
    DEA believes the HIDTA program is a critical component in 
the administration's drug enforcement efforts. Maintaining the 
focus on the HIDTA mission and emphasizing the most significant 
targets will go a long way in not only achieving the disruption 
and dismantling of national and international organizations, 
but also in keeping drugs off our local streets. DEA stands 
ready to take on any challenge and continue to lead in 
America's fight to reduce drug trafficking and abuse.
    In my written testimony which I have submitted is an 
overview of DEA's witness protection initiative. At this point 
I would be happy to answer any questions this subcommittee may 
have. Thank you.
    [The prepared statement of Mr. Guevara follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.012
    
    [GRAPHIC] [TIFF OMITTED] T9455.013
    
    [GRAPHIC] [TIFF OMITTED] T9455.014
    
    [GRAPHIC] [TIFF OMITTED] T9455.015
    
    [GRAPHIC] [TIFF OMITTED] T9455.016
    
    [GRAPHIC] [TIFF OMITTED] T9455.017
    
    [GRAPHIC] [TIFF OMITTED] T9455.018
    
    [GRAPHIC] [TIFF OMITTED] T9455.019
    
    [GRAPHIC] [TIFF OMITTED] T9455.020
    
    [GRAPHIC] [TIFF OMITTED] T9455.021
    
    Mr. Souder. I thank you both for your testimony, and as we 
continue to work on, as we start to actually prepare for the 
markup of the legislation, there are a number of things we are 
debating as regards HIDTAs.
    And, Mr. Burns, I would like to start with the 
proliferation of HIDTAs that has occurred has resulted in a 
kind of different focus. In other words, every area, to some 
degree, is a drug trafficking area or it wouldn't have any drug 
usage; it is because somebody had to traffic in the narcotics. 
Historically we had DEA task forces or FBI task forces or local 
task forces to deal with that, but when the HIDTA was 
developed, they were supposed to be high intensity, which means 
higher intensity than other parts of the country drug 
trafficking areas. The initial ones, as I said in my opening 
statement, as you referred to, were pretty well universally 
agreed upon, Miami and Los Angeles, Southwest Border, and the 
large areas.
    As this has proliferated, we have seen a wide variety of 
different types HIDTA focus, and this has also diluted the 
funds from going to those highest intensity areas. Do you 
believe that some of those areas should be removed from 
participation in the program? If we don't remove some from the 
program, do you believe that the budget should be allocated and 
a certain fixed portion should go to the highest intensity 
parts and less to the lower intensity? And if that isn't the 
case, there are certainly going to be additional HIDTAs because 
there are several HIDTAs right now that aren't as high as some 
areas that aren't excluded, so would you favor increasing the 
number of HIDTAs?
    Mr. Scott Burns. Thank you for that question, Mr. Chairman. 
There is no doubt from 5 HIDTAs to 28 HIDTAs now in 43 States, 
the District of Columbia and Puerto, and covering approximately 
13 percent of the counties in this country, that the original 
HIDTA concept in 1988 is not what it is in 2003. With that 
said, I must state that each HIDTA is different. Each HIDTA, as 
this program has evolved, has come to deal with specific issues 
in their area. Appalachia, certainly, as you know, is not New 
York and is not Los Angeles and is not the Midwest, each 
attacking the local impact and drug issues that they have in 
their jurisdiction, but also dealing with national 
manufacturing, transportation, distribution and financial 
crimes aspects of this business we call the drug trade. 
Certainly in 15 years the threat has moved. Certainly there are 
counties that no longer would meet the original designation as 
a HIDTA county, and certainly there must be some mechanism in 
place to rectify that.
    With that said, level funding every year, and with a great 
deal of help from Congress with respect to where new or 
additional counties or HIDTAs ought to be stood up has had the 
effect, as you say, to dilute the pool, if you will, with which 
to attack the problem. I believe that the HIDTA program is most 
effective when professionals here in Washington and, more 
importantly, in the field assess the threat and then, with your 
support, drive resources to where we can do the best good.
    Mr. Souder. You have, in your testimony, said you have 
tried to shift the focus of the HIDTA program to the National 
priority targets as well as the regional targets. Will HIDTAs 
be required to tailor all of their programs that direction, or 
do you see it as a mix?
    Mr. Scott Burns. I see it as a mix. Currently our 
requirement is that 51 percent of all the funds for the HIDTA 
program must be allocated to rural areas or to attack the 
problem in rural America. The reality is today about 80 percent 
of all of the HIDTA funds are going to State and local 
jurisdictions in counterdrug functions.
    The CPOT program is an attempt by Director Walters and 
myself and Kurt Schmidt and the Department of Justice, and with 
support from you, Mr. Chairman, and others to redirect the 
HIDTA focus toward the major targets, back in line with what 
the original intent of HIDTA was, and to try and make a 
difference on a National and international level.
    Mr. Souder. This is probably going to be the most difficult 
challenge, and I am not sure we can politically get this done, 
but the way it is going is that every area of the United 
States, if it is to have a coordinated effort, that is a 
wonderful goal, and that certainly my home area, which does not 
have a HIDTA, even though it was raised initially in the 
process whether we would have one, is at this point a lot 
higher drug intensity trafficking area than many that are 
HIDTAs; and, therefore, the question is why doesn't my area and 
other Members of Congress, who don't have an area have a 
similar drug coordination effort? But the high intensity 
concept was to make sure that the places where most of the 
drugs were coming into the county would keep it from getting 
into the rural areas and other areas with pockets in myth and 
others that may be focused on differently. But I am not sure, 
politically, whether we can accomplish this, but it is 
definitely a different type of program and we have to, in the 
reauthorization, either acknowledge that it is a different 
program or figure out how we are going to do battle with the 
appropriators to make sure that the program follows through its 
authorized language.
    And I thank you for your comments.
    Mr. Scott Burns. Thank you.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. After September 11 there has been a lot 
of refocus of different Federal law enforcement agencies 
working more in the terrorism arena and with homeland security. 
How has that affected your agency as it relates to the programs 
we are talking about today, as far as resources going more into 
terrorism, homeland security? Has it affected manpower, 
resources?
    Mr. Scott Burns. We have seen, Congressman, some pullback 
from clearly the Federal agencies that are involved, the FBI, 
which has been well documented, the Department of Defense, whom 
we have been working with closely to transition those programs 
that have been an assistance in the counterdrug program 
eradication, cargo inspections along the border, the schools 
that train thousands of State and local law enforcement in 
counterdrug efforts each year.
    But the most disconcerting, I suppose, would be what is 
more in the rumor mill than we have actually seen, and that is 
that State and local law enforcement agencies are becoming more 
taxed. Budgets, as you know, are not going well across the 
country, and if chiefs and sheriffs have additional duties, 
counterterrorism or because of the budget, HIDTA is certainly 
the first area not that they want to, but that they are going 
to pull out of. That is our suspect.
    Mr. Ruppersberger. I understand that. And with the locals 
and the refocus and all the different law enforcement agencies, 
have you seen resources leave your focus on actual drug versus 
looking more into the terrorism, from your perspective, from 
the Federal level?
    Mr. Scott Burns. I have to tell you honestly that the day 
after, on September 12, and until today, John Walters has 
charged us with making it very clear to all Federal agencies 
that we are all Americans, we are here to help, whatever we can 
do to assist you we will, but we cannot dilute the counterdrug 
mission in light of terrorism, and that we will work together. 
So to date I would say I have not seen that.
    Mr. Ruppersberger. That is good. The other thing, first 
thing, drugs have no geographical boundaries, and I think the 
HIDTA concept is an excellent concept because you have local, 
State, Federal. A lot of times leads and sources or informants 
come from the local and then you develop like a strike force 
relationship. Now, there are always jealousies that exist. I 
know in the old days, when I was a narcotics prosecutor, we, as 
a local, did not have the money to pursue a high profile 
person, to have four or five cars tail some to put somebody in 
the witness protection program. I think what the Federal 
Government, through HIDTA, brought to the locals was not the 
resources and the teamwork concept. You always have issues of 
need to know, and the locals and State feel that the Federal 
agents are not telling them everything they know; probably more 
FBI than DEA, by the way. But where has that evolved? Do you 
see that changing or does that still exist? And if it does 
exist, what do you suggest we do to keep working through that 
problem?
    Mr. Scott Burns. I have, likewise, spent a career as a 
local prosecutor.
    Mr. Ruppersberger. Where were you?
    Mr. Scott Burns. In southern Utah. Probably smaller than 
where you came from.
    Mr. Ruppersberger. Oh, yeah. Baltimore.
    Mr. Scott Burns. That is pretty close.
    I think one thing HIDTA has done over the years is 
establish better relationships. We have had the ability on a 
State and local level to work with the DEA, the U.S. attorneys, 
the relevant Federal agencies that are involved, and obtained 
the resources and the help to go after the higher priority 
targets; and, in fact, we have had many discussions in looking 
at CPOT, or the Consolidated Priority Organizational Targeting, 
program. While the target may be in Colombia or Mexico, we are 
certainly cognizant that the intelligence and the assistance 
may come from a local prosecutor in Baltimore or Duluth, and 
that is part of the beauty of the HIDTA program.
    Mr. Ruppersberger. In the high profile targets are 
resources used the most effectively wiretapping?
    Mr. Scott Burns. Absolutely.
    Mr Ruppersberger. OK.
    Mr. Scott Burns. Yes. That is what we are doing.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Carter.
    Mr. Carter. Well, I have had the pleasure to work with the 
capital area task force in Texas on many, many occasions, and 
it is a very, very effective group; brought a lot of cases to 
my court to try, and we disposed of a lot of those very 
effectively. I think it is a great concept, this proliferation 
of numerous expansions of offices that they have had. I am just 
curious because we are aware, particularly where I live is a 
gateway area from Mexico, I-35 supposedly is one of the highest 
drug traffic columns in America, and it runs right through my 
hometown. It is estimated every fifth car is possibly a drug 
trafficker. That is a kind of interesting estimate, I think, 
but, anyway, that is what they claim.
    And so the five original idea areas of the country were 
clearly the areas where we had a high priority, and now there 
is some question as to whether resources are being drained from 
the high profile areas to other areas that have definite needs. 
And I think the task force idea works. Have you ever thought 
about switching from a task force to a strike force in some of 
the rural areas? Because I have seen our task force deal with 
specific problems and go in and attack a specific problem area 
as a strike force, which would temporarily take those resources 
from the high target areas, but then those resources could be 
re-made available for those high priority areas when they are 
needed; sort of a big picture allocation: strike a problem in 
middle America, and I think you can effectively deal with it, 
and then move back to the border and the areas where the high 
traffic unit is coming in and out. Has any of that concept been 
looked into?
    Mr. Scott Burns. Interesting, Congressman, we have had 
those very discussions, and as Chairman Souder and his staff, 
and you know, Director Walters looks as the drug trade as a 
business. How do we hurt them; how do we become the anti-CEOs; 
what can we do to cripple or disable an entire trafficking 
organization or a part of it, the distribution, the 
transportation, the financial crimes aspect. And one of the 
tactics that we have looked at, and in some areas tried, is 
exactly what you are talking about, concentrate resources on a 
particular problem in a particular area and then see if we can 
disrupt the market.
    Mr. Carter. In our county they did that very thing on a 
small town, which you would think wouldn't be a source, but it 
seemed to be a congregating area for traffickers as they came 
out of Mexico. They, along with locals, have gone in and taken 
an area where you wouldn't allow your child to even drive 
through the area, and made it a place where you can hold a 
Sunday school picnic. They actually dozed down buildings along 
with local cooperation and did a beautiful job of cleaning up 
that area, and it was a strike by the capital area task force 
that did that, and very effective, and then they moved on to 
what they normally did with it.
    Mr. Scott Burns. Sure.
    Mr. Carter. And so that was the reason I thought about 
that.
    Mr. Scott Burns. Thank you.
    Mr. Carter. Thank you.
    Mr. Souder. Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman.
    Thank you, witnesses, for being here. Obviously sometimes 
our questions reflect where we live and what our districts are 
made up of, and mine is one of those areas that is in north 
Georgia, which is a non-border State, yet from some of the 
actual arrests and convictions that have been obtained contain 
some of the hot spot areas for major distribution since I-75 
goes through my district and I-85 also goes through my 
district.
    So my first question is since we do have a HIDTA in 
Atlanta, but it is restricted, it is my understanding its 
content of restricted area is only Fulton County, city of 
Atlanta, and DeKalb County, and does not include any of the 
counties in my northern district, even though they have had 
some of the major drug busts, much more significant even than 
Atlanta itself, who, first of all, decides the jurisdictional 
area that is included within a HIDTA? Who makes the decision as 
to expand it or not?
    Mr. Scott Burns. It is a long process, but the short answer 
is the ultimate decision is made by the Director of the Office 
of National Drug Control Policy after consulting with Members 
of Congress, you, the Governor from the respective State, and 
then having an intra-agency review; we would bring in experts 
from DEA and FBI and Treasury and others to look at it to see 
if it meets the statutory criteria.
    But I guess the better answer to your question is, and it 
goes back to the chairman's initial statements, we are 
currently level funded at $206 million, and have been for some 
time, and the question is, then, how do we continue to expand. 
And you may have a serious problem in the northern part of 
Georgia, but we have to come up with a way of determining 
whether or not that is more of a problem than in Brownsville, 
TX, currently. And that is why we have looked at options of how 
we can reassess and look at the HIDTA program, and we hope that 
these performance measures that we are putting in place will do 
just that.
    Mr. Deal. Well, first of all, would you convey the request 
that they contact and discuss this issue with me, as a Member 
of Congress who has an issue and an interest in it?
    Mr. Scott Burns. Most certainly.
    Mr. Deal. And I don't view it necessarily as putting one 
part of the country necessarily in competition with the other. 
I would like to say I would be willing to be in competition 
with the counties that make up the Atlanta division right now, 
as to whether or not they can justify all of the resources 
there, as opposed to some of the outlying areas on the suburban 
areas on the interstates, where much of the traffic is 
obviously still moving.
    My second question is as an area that just as we have a 
problem with drug activity, we also have a problem with illegal 
immigrant activity, and since my son is the State prosecutor in 
my local area, we obviously know that there is a linkage of one 
with the other, and I would like to ask what is your working 
relationship with the INS as it relates to the illegal 
immigrant population being a source of bringing many of the 
drugs in from Mexico; and second, has that relationship changed 
or do you anticipate any changes as we move into the new 
Homeland Security Department? Would you comment on those areas, 
please?
    Mr. Scott Burns. Certainly. I would answer that by saying 
along the border I think we have had an excellent relationship. 
I think that inside the continental United States we have not 
done as well as we can. Under the new reorganization and under 
the Department of Homeland Security, we have made new efforts 
to try and coordinate better with them in the HIDTAs, and just 
within the last 6 months we have also made several trips to 
Mexico; we have met with State and local prosecutors on the 
other side of the border and discussed issues with respect to 
how we can help each other on these immigration issues and 
prosecution issues.
    So we are doing good on the border; we could do better 
inside the United States.
    Mr. Deal. I am going to ask one last question, if my time 
is about to expire.
    In that regard, my concern has been, of recent, that we 
have not seen the cooperation from Mexico with regard to such 
things as extradition. We all understand that capital felonies 
they are not going to extradite back, but most recently we 
understand that the Supreme Court of Mexico has now issued a 
ruling in which they have ruled that even those cases that 
would impose life imprisonment, since they now consider that to 
be cruel and unusual punishment, will not be extraditable back 
to the United States; and that is going to involve most of your 
major drug activities. I think that is in stark contrast to 
what Colombia's attitude has been, is that they welcome 
extradition of their major drug traffickers.
    Have you seen any problems developing from that more 
restrictive extradition attitude from Mexico? And what impact 
will that have on your efforts to focus on major drug 
trafficking organizations?
    Mr. Scott Burns. It is certainly an issue. I know that 
Director Walters has met with persons in the highest levels of 
the Mexican Government, I know that it is an issue that the 
Department of Justice deals with everyday, and I can only tell 
you that I think great strides have been made by Mexico within 
the last 12 months because of efforts by Mr. Walters and others 
to convince them that we can make the problem smaller by 
working together. And as a local prosecutor, my efforts have 
been to reach out to local prosecutors along the border. I have 
found that sometimes the problem isn't as big as countries, but 
as simple as getting to know people on the other side, and we 
have great hope that relationship is going to better our 
cooperative efforts and take down some of the major trafficking 
organizations. But clearly, Congressman, the extradition issue 
is a difficult one.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Guevara, do you have anything to add on the 
Mexico relationship?
    Mr. Guevara. No, sir. At my level, when I have met with 
counterparts, as recently as last week, I see an attitude that 
is predisposed to trying to cooperate with us more, and I think 
that there is a new era that will allow us to move forward and 
push ahead with that particular issue. In speaking to a 
prosecutor again just last week, I understand there is new 
legislation in Mexico that allows for the maximum penalty of 60 
years, and in my semi-private discussions with him, he was of 
the opinion that if somebody was 50 years old and Mexican law 
allowed for punishment up to 60 year incarceration, that, in 
his eyes, constituted a life sentence. So I say that just 
simply there is a new attitude, and I am optimistic that will 
lead us in this very, very difficult issue.
    Mr. Souder. Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Burns, I apologize to both of you for not being here 
for your earlier testimony. And if you have already covered it, 
I also apologize.
    Mr. Scott Burns. It was really good.
    Mr. Bell. It was all the talk throughout the Capitol that 
it was.
    Mr. Scott Burns. That is what I thought.
    Mr. Bell. That is why I came.
    But I represent part of the Houston region, and I wanted to 
talk to you. Some of the concern is focused on the splintering 
of the Southwest Border, HIDTA into the five different parts, 
and I am curious if you have plans for addressing some of the 
problems in regard to cooperation and communication, and how we 
get passed some of the turf war mentality.
    Mr. Scott Burns. Congressman, I have been the deputy 
director for 11 months. There are 28 HIDTAs, including one in 
Hawaii and Puerto Rico. I have been to the Southwest Border, I 
think, eight times. I have only been to about 14 of the HIDTAs. 
I have been there that many times to deal with the very issue 
that you raise. I am convinced that this country and the HIDTA 
program is best served by, one, cooperating HIDTA along the 
Southwest Border, from San Diego to south Texas. We have to 
deal with the border as one HIDTA, which it has always been, 
and in a cooperative spirit.
    Last week we had the board members from, I think, four of 
the five partnerships, Arizona had some conflicts, we had all 
of the partnership directors here with the exception of 
Arizona, met with some of them later, and I believe we are well 
on our way to establishing standard operating procedure to meet 
the needs and the desires of the respective States, which is 
always a priority, and understand that in America it is time to 
work together, not splinter off, not my State, not my local 
issues, not my section of the border, but all together. And I 
hope to report to you within the next month that has happened 
and we are going to make it better.
    Mr. Bell. Have you been able to develop some consensus 
during your trips for the formation of one?
    Mr. Scott Burns. It has always been one. There has always 
been some idea that individual States want their own, and they 
believe that by being called their own HIDTA they may have more 
leverage for additional money. I think that, in meeting with 
the board members, there has become a consensus that they are 
more important to you and to the citizens of this country when 
they are combined as opposed to individual HIDTAs. They 
currently receive almost a quarter of the entire HIDTA budget. 
Individual States receive large amounts of moneys to combat the 
problem, and I think the reason that they receive so much 
attention is because they are the border.
    Mr. Bell. Looking at just the Houston HIDTA, 15 State and 
local agencies and 10 Federal agencies that have to come 
together to formulate a strategy to attack drug trafficking, 
and I am just curious if you have seen some of the problems in 
that area regarding communications and information sharing and 
strategic planning, and how what you would recommend as far as 
addressing some of those issues.
    Mr. Scott Burns. In Houston? Stan Purse, first, is one of 
the HIDTA directors in the country. The coordination in the 
Houston HIDTA, which I haven't been to because in many ways it 
is an example of what all HIDTAs should be, they have their 
finger on the pulse, they understand the threat, and they move 
their assets and direct their focus in cases toward the 
problem.
    Mr. Bell. Thank you.
    Mr. Scott Burns. Thank you.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Souder. I would like to do a brief followup. This is 
far too complex a subject to do in a hearing, but I want to put 
on the record this comment and question.
    If we have a Southwest Border HIDTA, which I agree with the 
concept, why wouldn't we have, then, regional concepts that are 
broad in other areas, such as north border, the northern border 
is longer, so maybe east-west? Why wouldn't everything north of 
the south border then also be a large zone of southwestern 
United States? Great Lakes region, all of Florida be together 
in one. In other words, a regionalization concept then with a 
local implementation, which might not be called a HIDTA, but we 
all agree that the functions of having the State and local 
involved have been invaluable in multiple ways. Nobody is 
questioning whether HIDTAs are effective, the question is how 
do we approach a national strategy to get the drug trafficking 
organizations? And if regionalization is good in one place, why 
wouldn't it be good in another?
    And I would ask Mr. Guevara and then Mr. Burns to comment.
    You were involved in southern California. Could you share 
some of your thoughts as how the DEA coordinates with this? 
Because the fact is we had DEA or FBI task forces in most 
regions already. What did the HIDTA add to that? And could you 
kind of weigh in on both the Southwest Border, the concept of 
regionalization, and then if we went to National, what that 
would do to the State and local cooperation?
    Mr. Guevara. Yes, sir. The DEA would support consolidation 
of multiple efforts. DEA is of the view that if we bring our 
resources together and we stay focused, we can impact the 
traffic at the highest level and thereby reduce the overall 
flow of drugs, reducing the availability. So DEA would support 
a consolidation of border HIDTAs. And because these criminal 
organizations operate at will and are very fluid, we need to be 
able to respond accordingly, and toward that end DEA has 
recently been moving toward improving our ability to do just 
that. DEA has four border sacks that go from San Diego to 
Houston, and it has been one of my projects to improve our 
operations there, and that has included meetings as recently as 
the previous month and the month prior to that, in which I 
brought the four sacks together to improve that communication, 
and then I took it a step further by meeting with our Mexican 
colleagues in Mexico City to see what more we could do to 
improve that communication.
    So I am of the view that it is imperative, wherever 
possible, that we have common goals and objectives, and that by 
working together and pooling our resources, we will hopefully, 
at the end of the day, be able to impact the traffic that will 
allow my parents in east Los Angeles to go to the grocery 
store.
    And if you could repeat the second part of the question, 
please.
    Mr. Souder. You were in the southwest or southern 
California border HIDTA yourself as a coordinator. How do you 
see, if we nationalize this more, it possibly negatively 
impacting the State and local cooperation?
    Mr. Guevara. I think that there may be a reluctance on the 
part of local law enforcement if they were to see or think that 
this would take away from the local impact cases. And my answer 
to that point of view would be that it would actually allow us 
to improve our overall efforts impacting on local traffickers 
if we can identify a cell that is responsible for just putting 
out the narcotics on the street. Ultimately, they are getting 
it from somebody else, and the challenge needs to be that we 
connect those cells operating in the neighborhoods, connect it 
to the mid-level violators that will lead to the command and 
control operations that we can detect through Title 3 or 
wiretap operations. I don't see a conflict whatsoever. I think 
what it will do is facilitate the coordination that will allow 
us to do exactly those type of operations.
    Mr. Souder. Mr. Burns, do you have any comments?
    Mr. Scott Burns. It is an excellent question, and it is 
something that students of HIDTA, if there is such a thing, 
talk about. I guess my response would be that what we have 
tried to do is be threat-driven and not necessarily make it all 
fit nicely in geographic regions. To some extent, as you well 
know, there already is some regionalization. We have five 
States in the Rocky Mountain HIDTA, we have six States in the 
Midwest, we have six in New England. But those States came 
together because the threat was consistent one with another and 
they believed that in those areas they could best attack the 
problem.
    But your idea is a good one, and it is one that I would 
like to discuss with you and your staff, because we are always 
trying to make this program better.
    Mr. Souder. For most of those clusters, they were too small 
to get their own HIDTA to justify it to the director or the 
appropriations. In the Southwest Border HIDTA it is a different 
challenge because they are big enough to do it individually, 
and that is the tension. But I appreciate your comments.
    Mr. Deal, do you have any other questions?
    Mr. Deal. I would just like to ask if there are any 
impediments to your functioning that we have any jurisdiction 
to deal with. I know that in the past, of course, there have 
always been jealousies among various departments. There have 
been in the past, of course, suspicions of not involving 
certain levels of departments. Many local jurisdictions, I 
think, were viewed as, well, don't share information with them, 
you are not sure where it is headed. I hope those days are over 
with. In fact, the jurisdictions at the local level that I have 
had involvement with I think are very willing to cooperate, I 
think they have the highest level of integrity of cooperation, 
and most of them are hungry for help from the outside because 
their resources are so limited.
    But are there impediments such as Federal rules, 
regulations, laws, etc. that prohibit sharing of information, 
that prohibit your transfer of functions or personnel? Are 
there things along those lines that we need to be aware of that 
we ought to be trying to deal with?
    Mr. Scott Burns. In many ways, Congressman, I think HIDTA 
is a victim of its own success. In the areas of the country 
where it works and is effective, everybody wants one, and I 
would say that, and I know Chairman Souder and his staff are 
well aware of this, it is a disincentive to the current HIDTAs 
where there is level funding in place. If they know the same 
money is going to come next year, no matter what, because of 
that requirement, we are not able, in ONDCP, I think, to do our 
job, and I think that would be helpful.
    As I said, in the short time Director Walters has been here 
and that I have been here, we are all on the same page in one 
vein, and that is we need to stop, take a deep breath, find out 
where we are at with this program, get performance measures in 
place, and then determine how we can make it better.
    Mr. Deal. That is all, Mr. Chairman.
    Mr. Souder. Thank you very much.
    Mr. Ruppersberger?
    Mr. Ruppersberger. After the arrests are made, where do the 
cases go, the State court or Federal court, or do you determine 
where you can get the best result?
    Mr. Scott Burns. It depends. Again, the beauty of HIDTA, I 
guess, is those issues are dealt with by the women and men who 
live in those areas and have firsthand knowledge of the 
problem. For example, along the Southwest Border we fund a 
number of State and local prosecutors because the cases, 
frankly, are overwhelming for U.S. attorneys to handle. And so 
it is dealt with by and between the States' attorneys and the 
U.S. attorneys in a particular region. Washington State right 
now, I am going there next week because there is an issue with 
BC Bud coming over the border in large amounts, and there is a 
State's attorney up there that some would say is swamped and he 
needs help; and there are county commissioners that say their 
jail is full, and, by the way, this kind of looks like a 
Federal issue.
    So part of what HIDTA does is try and assist in working 
those issues out by and between the prosecutors as well as 
local law enforcement.
    Mr. Ruppersberger. Would you say that it is more an issue 
of swamped or where you think you can get the best sentence 
time, so to speak?
    Mr. Scott Burns. I have to answer that honestly.
    Mr. Ruppersberger. That is what I want you to do.
    Mr. Scott Burns. I wish we were to the point of where we 
could get the best sentence. I would say it is not that. I am 
sure it is that way in certain specific areas, but right now it 
is a matter of resources, it is a matter of putting bodies on 
cases and getting them charged.
    Mr. Ruppersberger. Even with your high profile targets?
    Mr. Scott Burns. Well, not with high profile targets. Those 
obviously would go to U.S. attorneys, and we would look at 
those as cases where the Federal system ought to be used 
always.
    Mr. Ruppersberger. OK. Thank you.
    Mr. Souder. One of the problems is that the northwest 
border is unusual because the primary markets are so far from 
the county where they are catching most of it, it is even way 
north of Seattle, and they are mostly headed toward California. 
So it has been a really unusual situation on the northwest.
    Mr. Bell, do you have any further questions?
    Mr. Bell. I have one other question on CTAC. The Technology 
Transfer Program is so popular that apparently we have a 
significant backlog in applications for next year's 
appropriations, and they will be spent as soon as these 
applications are approved. Do you think we should have an 
additional spending authorization? And if so, at what level?
    Mr. Scott Burns. As you state, the 2003 budget was spent in 
March, and there are over 1,000 applications already for 2004. 
Dr. Albert Brandenstein, who is here, would tell you that $65 
million, I think it is $48 million for 2003, $65 million, and 
that is without the wireless communication aspect of it, would 
meet all of the needs of this important R&D program.
    Mr. Souder. With that, we will have additional written 
submitted questions, and we will go to the second panel.
    Thank you for coming this morning.
    Mr. Scott Burns. Thank you very much.
    Mr. Guevara. Thank you.
    Mr. Souder. If the second panel could come forward.
    Mr. Deal [assuming Chair]. We will welcome you to our 
hearing today, and it is my pleasure to be able to swear you 
in, but I would ask that you rise, please, take the oath.
    [Witnesses sworn.]
    Mr. Deal. Let the record show that the witnesses have 
answered in the affirmative to the oath. I told them I was 
accustomed to swearing in folks to a grand jury and to a 
witness stand, and that is almost the same, so we welcome you 
here.
    Does any member of the panel have a special guest on the 
panel you would like to introduce?
    Mr. Ruppersberger. I would just like to acknowledge Mr. 
Romano from the great city of Baltimore.
    Mr. Deal. All right, well, thank you.
    The witnesses will each be recognized for opening 
statements, and we ask if you would, please, to try to 
summarize your statements and keep it within a 5-minute opening 
period.
    And we are pleased to have Chief McCampbell. We will start 
with you and then just move down the line. Chief, we are 
pleased to have you with us.

 STATEMENTS OF CHRISTY MCCAMPBELL, CHIEF, BUREAU OF NARCOTICS 
 ENFORCEMENT, CALIFORNIA DEPARTMENT OF JUSTICE; WAYNE WIBERG, 
 COMMANDER, NARCOTICS AND GANG INVESTIGATION SECTION, CHICAGO 
   POLICE DEPARTMENT; ANTHONY ROMANO, CHIEF, ORGANIZED CRIME 
 DIVISION, BALTIMORE POLICE DEPARTMENT; AND LIEUTENANT COLONEL 
   STEVE MOYER, CHIEF, HOMELAND DEFENSE/INTELLIGENCE BUREAU, 
                     MARYLAND STATE POLICE

    Ms. McCampbell. Thank you. Mr. Chairman, members of the 
subcommittee, I appreciate the opportunity to appear before you 
today to discuss what I see as the immense importance and the 
influence that the HIDTA programs have in our States. I speak 
representing my home State of California, but I hope that I can 
convey to you the benefits that are reflected on all the other 
States that participate in the HIDTAs.
    I am the Chief of California's Bureau of Narcotic 
Enforcement and I oversee all statewide narcotic enforcement 
operations. I am also a past president of the California 
Narcotic Officers Association, which represents 7,000 members; 
NASDEA, which is the National Association of State Drug 
Enforcement Agencies; and, as well, I am an active member in 
the NNOAC, which is the National Coalition of Narcotic Officer 
Associations.
    With an exploding population of over 34 million residents 
in California, it is the most populous State in the United 
States. We border Mexico; we face the most severe drug abuse 
epidemic ever known, and I attribute that to the ever-
increasing legalization movement which many misguided 
individuals seem to be enthusiastically embracing in my State; 
and we are considered the source country for the manufacture of 
methamphetamine. With these many, many problems, we in 
California are fortunate enough to have been granted four 
HIDTAs in the State: one in Los Angeles, one in San Diego, one 
in San Francisco, one in Fresno. Or perhaps I should say that 
we are unfortunate enough to need that much help from ONDCP.
    I am not an expert in the everyday administration of any of 
the HIDTAs, I leave that to the HIDTA directors, but I do 
participate in all four HIDTAs, have personnel assigned to each 
one. I have had the experience of being one of the framers of 
the San Francisco HIDTA and I chair their Initiatives 
Committee.
    With this experience I have been able to observe firsthand 
the power and the coordination of efforts that the HIDTAs bring 
in the overall U.S. drug strategy. In observing the HIDTAs, I 
have noted five specific areas which I believe to be 
representative of the great success of this program.
    First and foremost, of course, is the coordination of 
efforts. The designation of a HIDTA demands that the variety of 
agencies and personalities must come to the table and forge 
partnerships. Law enforcement has a tendency, as was mentioned 
before, to work separately and not always share. But HIDTA 
members must all work together, we share information and 
resources, and we establish those ``pick up the phone'' type 
relationships.
    Requiring the agencies to co-locate and place as many 
resources under one roof is efficient and it builds those 
working relationships. Just recently, in my own Bureau of 
Narcotic Enforcement, we moved one of our local task forces 
under the umbrella of the HIDTA in the Richmond, CA area, 
combining our investigative efforts.
    Second, enhanced communications and intelligence. Without 
the benefit of the HIDTAs, we would not have the communication 
levels that we now maintain for officer safety. The HIDTAs have 
tremendously enhanced communication abilities, and an integral 
part of HIDTA is the need to enhance and increase the free 
exchange of information and drug and criminal intelligence.
    As a matter of fact, last year our Los Angeles 
clearinghouse, which is one of our information HIDTAs, began 
providing deconfliction services for not only the Los Angeles 
area, but for the northern California HIDTA, Central HIDTA, and 
the Nevada HIDTA. In the spirit of cooperation that is fostered 
by the HIDTA program, the northern California Narcotic 
Information Network [NIN], co-located with the Los Angeles 
Clearinghouse, and instead of everyone being territorial, all 
agreed to co-locate and work together in integrating our 
information. The intelligence component also of the HIDTAs has 
connectivity into the National RISS System, which combines 
local, State, and Federal narcotic intelligence sharing and has 
dramatically improved the communications.
    Third, and I consider this very important regarding the 
HIDTAs, is regional responses. An essential component of HIDTA 
is the flexibility to focus on regional drug issues. Under the 
guidance of the board of directors, threat assessments are 
developed and then a strategy is built.
    The Central Valley HIDTA is centered around Fresno in our 
State, an agricultural area that has a tremendous problem with 
meth labs and resulting toxic waste sites that are left behind. 
The environmental damage is horrendous, and I have personally 
seen drug-encrusted canisters, plastic ephedrine bottles 
visibly floating downstream in the Fresno area, or strewn about 
in the animal pastures in that area. The drug threat is 
enormous, and the Central Valley HIDTA almost exclusively 
focuses on the meth problem in our State. Other parts of the 
State do have different geographical problems and different 
drug problems, but the benefit of flexibility for the local 
board to decide what the threat is is essential to fighting our 
the drug problem.
    We try to conduct OCDETF cases, but that is not always 
necessarily the case. So through the HIDTA flexibility, if 
necessary, we can still take a smaller case to the State's 
attorney. This type of flexibility is a key of success to the 
HIDTA program.
    And I want to say, before I close, that enough emphasis 
cannot be placed on the importance of the HIDTA concept that 
allows strong local and State agency input into developing the 
regional enforcement strategies. HIDTA is the one Federal 
program that provides equal balance to all participants and 
maintains the identity of each region through our board of 
directors. To diminish that balance and exclude the State and 
the local input in favor of exclusive Federal control I think 
would dramatically dissipate participation and cooperation of 
many agencies.
    Of course, it goes without saying the fiscal help that we 
get from HIDTA no doubt helps us, and we on the HIDTA boards, 
we watch that money very carefully, and it was just a week ago 
that one of the HIDTA committees sat down together and we 
reviewed the initiatives and we redirected some of the funding 
from initiatives that had met their mission.
    As you know, California is undergoing a severe budget 
crisis, and local and State narcotic enforcement units are 
being virtually eliminated. I have to say in Oregon I was told 
that just recently they are down to eight State narcotic agents 
in that State, Nevada has almost eliminated all of their State 
narcotic agents, and my own Bureau of Narcotic Enforcement, we 
have been reduced by 100 personnel and I have had a cut of 
almost $10 million in my State BNE budget. It is very severe, 
and most of that money is being redirected toward homeland 
security.
    The bottom line are the results that the HIDTAs produce: 
LA, we seized almost 40 tons of dangerous drugs in 2001; the 
Central Valley HIDTA, in 3 years, we seized over 1,400 lbs. of 
pseudoephedrine tablets; the northern California HIDTA, in 2 
years we have made over 5,000 arrests; and the California 
Border Alliance Group, we have seized 8,000 lbs. of cocaine. 
These are the results that the HIDTAs produce for us.
    In conclusion, this program allows enforcement to enhance 
narcotic enforcement activities, provide focus to regional 
problems, and facilitate cooperation. You would probably ask is 
it possible that we would continue on our narcotic efforts 
without a HIDTA. Yes, but it would be very painful, and I think 
it would hurt what we have built up with the HIDTAs.
    Thank you.
    [The prepared statement of Ms. McCampbell follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.022
    
    [GRAPHIC] [TIFF OMITTED] T9455.023
    
    [GRAPHIC] [TIFF OMITTED] T9455.024
    
    [GRAPHIC] [TIFF OMITTED] T9455.025
    
    [GRAPHIC] [TIFF OMITTED] T9455.026
    
    Mr. Souder [resuming Chair]. Mr. Wiberg.
    Mr. Wiberg. Good morning. I want to thank you for affording 
me the opportunity to be here. My name is Wayne Wiberg. I am 
the commander of the Chicago Police Department Narcotic and 
Gang Investigation Section.
    Chicago has a major problem threatening our communities and 
the people whom we are sworn to protect. There is a cycle of 
narcotic violence which has been persistent over several years. 
The violence in Chicago is directed by sophisticated gangs with 
long histories, as the Vice Lords and the Gangster Disciples, 
these gangs whose organizational structures can rival those of 
many Fortune 500 companies. The violence inflicted on our 
communities by the attempt to control the distribution of 
narcotics in our city is apparent in at least 50 percent of all 
homicides occurring within Chicago, and are attributed to the 
gangs involved in the narcotic trade. The main avenues of 
distribution are the open air drug market, which can net 
anywhere between $5,000 and $10,000 per day or a staggering 
$1.8 to $3.5 million per year at each location. As the gangs 
fight between each other and among themselves over the control 
of these open market locations, police officers' lives are at 
risk, in addition to the young men, women, and children who are 
losing their lives and their futures to violent death, lifelong 
addiction, and to long periods of incarceration.
    We believe we have made a significant impact on these 
gangs. Our street corner conspiracy operations have been shown 
to effectively remove street corner gang markets in a surgical 
fashion, encompassing all entities in the market operation. Our 
conviction rates are high and sentences considerable. These 
operations have also shown to significantly improve the quality 
of life in the neighborhoods where we have been conducting 
them. But as important as these operations are, it is not 
enough. We are doing what we can to sever the ``tentacles'' of 
the drug distribution here in Chicago, but we need really to 
sever the ``head,'' which is made up of the cartels that reach 
beyond local law enforcement and who supply various bulk 
narcotics for further distribution throughout this country.
    Chicago has been identified as the premiere intermodal hub 
of narcotic distribution for the United States. An example can 
be found in one of the many large seizures made by the 
Narcotics Section of the Chicago Police Department in the year 
2002. Officers from the Narcotic and Gang Investigation Section 
from the Chicago Police Department seized the largest amount of 
cocaine in department history: 2,000 kilos of cocaine were 
recovered from a warehouse in a suburb of Chicago. This seizure 
of cocaine had an estimated street value of approximately a 
quarter of a billion dollars. The Mexican cartel identified as 
bringing this shipment into the area stood to make an estimated 
$20 million in the wholesale distribution of these drugs, and 
the money was to be smuggled back into Mexico via the same 
false truck panels used to hide the bulk drugs.
    There are many other examples supporting the fact that drug 
cartels are responsible for all the drugs that enter or pass 
through the Chicagoland area.
    The ability of local law enforcement to attack 
international mechanisms that feed the narcotic violence in my 
city is not only limited by jurisdictional constraints, but by 
financial constraints as well. To be more effective in stemming 
the distribution of drugs, there has to be a greater 
participation between the Federal Government and local law 
enforcement in all investigative aspects of drug trafficking. A 
more concerted effort has to be applied to removing and 
eradicating the financial resources that generate drug 
distribution and the related violence. This can only be 
accomplished by a multi-agency effort. That is why the Chicago 
HIDTA is so valuable, it is the catalyst to accomplish this 
goal.
    As with the era of prohibition, when the gangs rose to a 
level of sophistication that allowed their influence to reach 
beyond the resources of local law enforcement, there was a need 
for the Federal Government to help. The Chicago HIDTA is a 
conduit for that help. HIDTA has provided us with the resources 
and capabilities to identify the hierarchy of these drug 
organizations, and to move toward a more effective prosecution 
of drug conspiracy cases.
    In closing, we in local law enforcement are challenged to 
try to make an impact on what really is an international 
network of drug delivery and distribution with limited 
resources. The Chicago HIDTA has been instrumental in helping 
to provide intelligence and link Federal resources to formulate 
comprehensive strategies and operations to be more effective by 
attacking not only the operatives at the street distribution 
level, but also impacting the upper and mid-level supply 
sources. We need continued support of these efforts to not only 
protect our police officers, but also to make our communities 
safer and to help to ensure a chance for a prosperous future 
for the next generation.
    Thank you.
    [The prepared statement of Mr. Wiberg follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.027
    
    [GRAPHIC] [TIFF OMITTED] T9455.028
    
    [GRAPHIC] [TIFF OMITTED] T9455.029
    
    [GRAPHIC] [TIFF OMITTED] T9455.030
    
    [GRAPHIC] [TIFF OMITTED] T9455.031
    
    Mr. Souder. Thank you.
    Mr. Romano.
    Chief Romano. Members of the Subcommittee on Criminal 
Justice, Drug Policy and Human Resources, good morning. I am 
pleased that Congressman Cummings extended the opportunity to 
the Baltimore Police Department to provide testimony today 
regarding the reauthorization of the Office of National Drug 
Control Policy's High Intensity Drug Trafficking Areas. I am 
Anthony Romano, chief of the Organized Crime Division of the 
Baltimore Police Department. I am extremely grateful for the 
partnership with HIDTA in Baltimore, and in my previous career 
with the New York HIDTA, where I served in the New York City 
Police Department for 18 years.
    During those 18 years, I spent a period of time, in excess 
of 10 years, combating the war on drugs, especially in the late 
1980's, the mid-1980's to late-1980's, when crack had 
completely overrun our city streets. I was a young narcotics 
detective assigned to the Narcotics Division, and we were 
tasked with the mission of taking back these streets. All of 
this was done with nothing more than a gun, a badge, and our 
arrest powers. We had no training other the basic training that 
was afforded to us by the New York City Police Department. 
There were no avenues available to rehabilitate those who were 
arrested. There were limitations on enforcement due to 
budgetary restraints.
    A young police officer back in the 1980's, while guarding a 
witness in a drug trial, was assigned his post to watch the 
home of these witnesses, and that night, in doing his job, it 
cost him his life; he was executed by members of the gang that 
this witness was going to testify against.
    I find myself now, after just retiring a year ago from the 
New York City Police Department, here in Baltimore, in a city 
that bears much resemblance to what I saw in the 1980's in New 
York, and as a specific case as it relates to a family here in 
Baltimore, namely, the Dawson family, another person who wanted 
to stand up against the fight on drugs, and this cost a mother, 
a father, and their father's children their lives.
    There is just no room for this here. We need help beyond 
the help of just having additional manpower and being able to 
go out there and take these streets back. The people who are 
arrested need to be rehabilitated. Those involved in the fight 
need to have the training that is available.
    Often, much too often, I have heard in my career in the New 
York City Police Department, and I hear grumblings as I begin 
my career here in Baltimore City, that there are budgetary 
restraints, and it is very difficult to run an operation 24 
hours. Drug dealers don't shut down their operations; they 
begin in the morning, they work through the night, 7 days a 
week. Unfortunately, there aren't enough people for us to put 
out on the street to fight this war 7 days a week, 24 hours a 
day, so we find ourselves needing people to stay longer.
    And what I have found in my career in New York, and I am 
starting to see here in Baltimore, and from my own personal 
experiences, no one does this work because they have to do this 
work. Drug work is a passion. I do this work and I have done 
it, and I could have moved on to many different areas in the 
police departments, but I chose not to. I could have advanced 
up the ladder through promotion. I chose not to, I chose to 
stay where I was and fight the war on drugs.
    Since 1994, the Baltimore/Washington HIDTA has performed at 
an extremely high level. It has assisted law enforcement 
agencies in coordinating an interagency response to significant 
threats or crises, such as the Washington-area sniper killings 
and the local response to the September 11 terrorist attacks. 
As a result, three law enforcement task forces operating in 
Maryland have been recognized by the ONDCP for their exemplary 
performance. These units include The Major Drug Traffickers 
Initiative, Drug Money Laundering Initiative, and Prince 
George's County Safe Streets Initiative.
    Communities battling this intensive drug trade and the 
violence that accompanies it need to know that HIDTA dollars 
and expertise are available for them for strategic and 
effective responses to violence and substance abuse. In New 
York, and now in Baltimore, I know that we cannot do it alone. 
Please consider ONDCP and HIDTA favorably in your 
reauthorization deliberation. Thank you.
    [The prepared statement of Chief Romano follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.032
    
    [GRAPHIC] [TIFF OMITTED] T9455.033
    
    [GRAPHIC] [TIFF OMITTED] T9455.034
    
    Mr. Souder. Thank you each for your testimony.
    I am going to yield first to Ranking Member Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
just read over opening statement, make it a part of the record.
    Mr. Chairman, the High Intensity Drug Trafficking Areas 
program is an important weapon in the Government's drug-
fighting arsenal. By coordinating and synchronizing the 
regional anti-drug efforts of local, State, and Federal law 
enforcement agencies, HIDTA programs around the country amplify 
the impact that participating agencies can make with limited 
resources.
    I don't think that there is any question as to whether we 
should reauthorize this program. Absolutely we should, in my 
judgment. And I know, Mr. Chairman, that you agree. Like any 
program that undergoes rapid expansion, the HIDTA program has 
experienced growing pains. New and evolving drug use transit 
patterns of drug trafficking have fueled the growth of the 
HIDTA program from five regions in 1990 to more than 25 today.
    One of the program's chief attributes is the capacity it 
provides to tailor a comprehensive interagency response to a 
highly specific regional drug threat. As we consider how to 
manage the growth of the HIDTA program into the future, we must 
be careful to preserve the advantage of flexibility that the 
program presently affords. The value of the HIDTA program is 
evident to me in the contribution that the Washington/Baltimore 
HIDTA has made since 1994 in helping agencies to fight the drug 
trafficking problem that severely affects my congressional 
district in Baltimore City, Baltimore County, and Howard 
County.
    It is no secret that Baltimore City's local drug problem is 
among the Nation's worse. Sadly, the city I represent in 
Congress is home to some of the Nation's most violent drug 
trafficking organizations, and the impact of their activities 
on those who live among the dealers and their client is direct. 
Everyday I see the devastation that drug trafficking causes in 
the lives of drug abusers, their loved ones, and the entire 
neighborhoods crippled and terrorized by drug-related crimes 
against people and property.
    As bad as conditions are in certain sections of Baltimore 
City, they would be much worse without the cooperation of 
coordination enabled by the Washington/Baltimore HIDTA. Through 
interagency task force and innovative and successful drug 
treatment component, a regional intelligence center and 
sophisticated crime mapping tools, the Washington/Baltimore 
HIDTA has dramatically enhanced the ability of law enforcement 
agencies to work together to dismantle major drug trafficking 
organizations and conduct investigations into large-scale drug 
money laundering operations.
    The existence of the Washington/Baltimore HIDTA also 
enabled a multi-agency response to one of the most tragic 
events the city of Baltimore has ever seen: the arson and 
murder, as Mr. Romano has already talked about, of the Dawson 
family in retaliation for Angela Dawson's efforts to engage 
police to keep drug dealers away from her very doorstep. In the 
immediate wake of this tragedy, ONDCP Director Walters, to his 
credit, authorized the redirection of existing funds within the 
fiscal year 2002 Baltimore/Washington HIDTA budget to support a 
Baltimore targeting initiative that is helping to increase 
safety for residents of specific neighborhoods that are subject 
to the ever-present threat of violence from drug distribution 
organizations and their affiliates.
    And I want to thank all of our witnesses for being here 
today, and coming, many of them, in such short notice.
    Like the HIDTA program, the Counterdrug Technology 
Assessment Center plays a critical role in our national drug 
control strategy and clearly deserves to be reauthorized. CTAC 
represents a tremendous resource for our Federal drug control 
agencies through its research and development programs and for 
local and State law enforcement through the Technology Transfer 
Program. As foreign and domestic criminals develop ever more 
sophisticated means of threatening harm to the American people, 
whether through the illegal drug trade or through terrorist 
activities, it becomes more and more essential to develop the 
technological means to detect and disrupt their activities. It 
is equally important that we enable those applications to be 
put to effective use by State and local law enforcement 
agencies. CTAC performs both these vital functions, and I 
strongly support the extension of its authorization.
    A moment ago I mentioned the horrific crime that claimed 
the lives of Carnell and Angela Dawson and their five young 
children, age 9 to 14. In sections of Baltimore City and places 
like them, the drug trade has immediate and severe impact. 
Angela Dawson had the courage to stand up to drug dealers. The 
dealers responded with a brazen message to the entire 
community. We must ensure that the residents of communities 
like the Dawsons have the vigorous support of law enforcement 
to insulate them from the threat of violent retaliation for 
their partnership with the police.
    I have often said, and I firmly believe, that the police 
cannot do their job effectively without the cooperation of the 
public. Witness relocation programs are not an adequate 
solution for individuals and families who are so deeply 
committed to reclaiming their communities as the Dawsons were. 
Moreover, communities can ill afford to lose such committed and 
courageous people.
    The redirection of funds by Director Walters for the 
Baltimore targeting initiative was an appropriate and necessary 
initial Federal response to this very difficult problem of 
domestic narco-terrorism. The next step must be to ensure that 
this kind of effort can continue without eroding the support 
for other important HIDTA initiatives.
    With that in mind, I have introduced legislation entitled 
the ``Dawson Family Community Protection Act'' that would make 
the funding of initiatives like the Baltimore targeting 
initiative a permanent priority within the Office of National 
Drug Control Policy. The bill would require the Director of 
ONDCP to devote a minimum of $1 million annually to HIDTA 
initiatives that aim to increase safety for and encourage 
voluntary cooperation with law enforcement, residents of 
neighborhoods that are severely affected by drug trafficking 
activity and related violence.
    Mr. Chairman, I sincerely thank you for lending your 
support for H.R. 1599 as an original co-sponsor, and I look 
forward to working with you to see that the legislation is 
enacted either on its own or as part of the ONDCP 
reauthorization legislation the subcommittee will consider in 
the coming weeks.
    In the meantime, I also want to thank all of the witnesses 
again for appearing before the subcommittee today, and I look 
forward to hearing the answers to the various questions put to 
you by our committee.
    Thank you, Mr. Chairman. I yield back.
    Mr. Souder. Thank you.
    Mr. Ose, did you have a statement also?
    Mr. Ose. Thank you, Mr. Chairman. I apologize for being 
late. I did want to get down here and make sure that I welcome 
Ms. McCampbell here to our committee. She is the chief of the 
California Department of Justice Bureau of Narcotics 
Enforcement, and in that role she has worked closely with my 
staff and the communities that I represent across the State to 
improve our efforts to fight the use and abuse of dangerous 
drugs and narcotics.
    Mr. Chairman, I want to add my compliments to those of the 
other Members here to your's and Mr. Cummings' continuing 
commitment to this effort. I have a statement I would like to 
enter into the record, but more than anything, I just want 
Christy McCampbell to know she is welcome here.
    Mr. Souder. Thank you.
    I am going to start with a few direct questions on the 
HIDTA. And let me start as a followup to the last panel, if I 
can ask Ms. McCampbell, the California partnership based in San 
Diego is part of the overarching Southwest Border HIDTA. Do you 
agree with ONDCP belief that greater authority should be given 
to the Southwest Border HIDTA to manage the five regional? Have 
you been involved in this discussion at all? How would you 
ensure that the individual partnerships do not take actions 
that negatively impact other parts of the Southwest Border?
    Ms. McCampbell. Well, I would have to say that I have not 
been directly involved in those types of discussions, but I 
know our CBAG, which is at San Diego and Imperial County, they 
do work collectively with the entire Southwest Border, and I do 
believe that we all need to be working together; that is the 
point of the HIDTAs. And we do work together at this time, so I 
am not sure to say it is really a separate entity is a fair 
thing. We have worked together; we share intelligence, we share 
information, and we share resources. So at this time we are 
part of the entire region.
    Mr. Souder. We can have all nice general discussions, but 
sometimes it comes down to money, that part of the struggle 
that we have at the Federal level when we devise a program like 
this, and this is what we are trying to work through, is that 
each HIDTA sees its money coming in, they make their plans 
based on their money. What happens when there are shifts along 
the border in particular? Because when we are successful in one 
area, they will tend to move to another area. And the question 
is how do we make the decision to shift those different funding 
mechanisms?
    The theory behind Southwest Border that this subcommittee 
clearly pushed for many years, particularly when Speaker 
Hastert was here, was that it needed to be somewhat fungible 
money that could move the intensity of the action where the 
gaps were. But then we ran into different problems in each 
State. It is one thing to talk theoretically about cooperation; 
it is another thing to say we are doing these ongoing 
investigations, we don't want the money moved.
    Any thoughts on that process of how to work through it? 
Because there is never enough money to tackle all the problems. 
The bottom line is nobody is saying that clearly there are 
parts of the Arizona border that are wide open right now; 
whereas, in the California border we have a little more, at 
least theoretically, control. That doesn't mean we have begun 
to eliminate the drug problem in California.
    Ms. McCampbell. In the initiatives that I am familiar with 
within our State, we actually do some shifting of funds in the 
particular initiatives. We just did that recently. We felt that 
in the Bay Area, particularly, that we had met the mission of 
some of those original initiatives, so the board of directors 
took that upon themselves to say, OK, we have finished up with 
that initiative, let's redirect this to some new initiatives 
that are coming in. And I think the key to this is to allow 
that board of directors who knows the particular areas to have 
a lot of say into how those moneys are spent.
    Now, that doesn't directly answer your question as to what 
do we do with that vacant part over there in Arizona at the 
border. I do agree that there has to be a shifting of funds; we 
don't stay on the same mission day in and day out forever. But 
I would like to emphasize that I think that those boards of 
directors, working in conjunction with ONDCP and with the HIDTA 
director, should have the authority to be able to perhaps in 
fact do shifting changing moneys.
    Mr. Souder. Mr. Wiberg, we have a HIDTA in Chicago and a 
HIDTA in Lake County. I am from the northeast part of Indiana, 
where we tend to view Lake County as Lake County views itself, 
as almost an adjunct of Chicago. Why would those two HIDTAs be 
separate? In other words, part of what we are getting at the 
Southwest Border we need to look at in the Midwest as well, and 
that is drug dealers don't divide along State lines because 
they elect officials along State party lines; they work in 
geographic areas in distribution networks that aren't our 
political subdivisions.
    I know political reasons why it is helpful in Indiana to 
have HIDTA. And I would ask a broader question. Not only Lake 
County, Chicago, but also why not a Great Lakes HIDTA or a West 
Great Lakes and an East Great Lakes, knowing Chicago and 
Detroit face slightly different things? But, in other words, 
why wouldn't you look at it as a hub, if we are saying this for 
the Southwest Border, and say how is it moving through the 
Great Lakes region?
    Mr. Wiberg. To be very honest with you, it would be very 
difficult for me to try and evaluate what occurs in other areas 
outside of the city of Chicago.
    Mr. Souder. OK, let us say Chicago and Lake County.
    Mr. Wiberg. OK.
    Mr. Souder. Because your guys are moving across the border. 
Most people who live there don't even know where the border is.
    Mr. Wiberg. We have worked in conjunction with the Lake 
County HIDTA, and it was very effective because they brought to 
our table something that we were looking at with respect to 
another street gang that was involved in the sale of PCP. And 
please understand, it is very difficult for me to make a 
judgment. I can tell you the HIDTA in Chicago is very 
effective; it works. I would like to see more of it, to be 
honest with you, for the surrounding Chicagoland area. We need 
more initiatives. How that would compare with Indiana, to be 
honest with you, Mr. Chairman, it would be very difficult for 
me to respond to that.
    Mr. Souder. My assumption is that, for example, in my 
hometown the narcotics were mostly coming from Detroit, but we 
found gangs, kids who had moved in from Chicago. The logical 
connection in most cases are going to be out of the major metro 
areas moving through into the other areas, and this isn't hard 
for an outsider to see, and it is kind of exasperating to look 
at it from the outside and not see a willingness inside the 
organizations to see the networking pattern that comes with the 
narcotics coming from a long distance, moving to regional 
networks, down into subregional networks, down into smaller 
networks. And if we don't, as a country, focus on that, we are 
just going to continue to drown in the individual cases.
    The HIDTAs certainly have improved that coordination, and 
what we are trying to get to is are there ways to further 
improve that or are HIDTAs starting to become, in a sense, 
another jurisdictional potential problem inside this system if 
they start coming in to the adjacency areas.
    So you have had some cooperation with Lake County. Do you 
get into the Milwaukee zone at all?
    Mr. Wiberg. Yes.
    Mr. Souder. In other words, presumably narco chains are 
going to run up toward Milwaukee. Rockford?
    Mr. Wiberg. Yes. Oh, definitely Rockford.
    Mr. Souder. How do you interact with St. Louis?
    Mr. Wiberg. From the time that I have been there, minimal. 
We really don't have that much involvement with St. Louis. A 
lot more closer to, you know, Milwaukee, Indiana, obviously. 
From the investigations that I have been involved in or know my 
group involved with, St. Louis has been minimal. But please 
understand, from a person who lives in Chicago and was a police 
officer for 37 years, I am glad the gangs are moving out of the 
city. You know, I apologize if they are coming your way, but I 
am glad they are moving that way. And I think that is one of 
the things that we need to be aware of, because when the gangs 
move, they bring everything with them; they bring the violence 
and they bring the drugs. And, again, I was stressing the fact 
that these drugs are not just limited to gangs, but they have 
that head behind them, which is the drug cartel.
    Mr. Souder. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First thing, your comment kind of 
concerned me about the fact, and I am sure this is happening 
everywhere, the resources that are being taken away from the 
drug enforcement going into homeland security and terrorism. 
And there is no question we have to deal with both issues, but 
if you take one away from narcotics and transfer it, and I 
would like to know from maybe each one of you on the panel is 
that happening in all of your jurisdictions, that the resources 
of manpower and moneys are going more into the terrorism and 
drawing away from your operations?
    Ms. McCampbell. Yes, I can respond to that. It has been 
devastating to California. I try not to take it personally, as 
heading up narcotic enforcement, but, you know, in California 
the Governor and the attorney general created CADIC, which is 
an acronym for our intelligence system for homeland security 
for terrorism, and they created that out of nothing. They had 
no budget when September 11 occurred. There was no budget and 
so to create this bureau they took it out of narcotic 
enforcement. And they took it out of narcotic enforcement 
because who knows how to deal with things going on the streets 
but the narcotics officers? We had informants; we knew there 
were Middle Eastern connections to pseudoephedrine sales that 
we, as narcotic enforcement officers, had worked.
    So 100 agents were taken out of Bureau of Narcotic 
Enforcement to create CADIC. We were promised eventually that 
would be refunded and made up, but then in the meantime we have 
energy crises and everything else, and so we have not received 
any allotments or funding back from our own State government.
    Mr. Ruppersberger. Mr. Romano, how about you in Baltimore?
    Chief Romano. Sir, as you know, we are in Charlie status. A 
lot of our moneys are going toward paying for overtime for 
officers and try to secure a city against terrorist attacks. 
Being new to this city and my initial impression of how serious 
the mayor and the police commissioner are to fighting this war 
on drugs, even though a lot of the moneys that I would normally 
be using to spend on training and for rehabilitation and for 
overtime as it relates to the war on drugs, there seems to be a 
huge commitment on the part of the mayor and, again, the police 
commissioner to go out there and do the job, and that is what 
we do. At some point I can only imagine that the strain on the 
budget is going to affect the work that we do.
    Mr. Ruppersberger. All the more reason why we need to 
encourage our President to give more money to first responders. 
I mean, it has to be done, because it is not only affecting 
what we are doing with our first responders, our police, our 
firefighters, and our health officers, but it is affecting your 
enforcement abilities. And after September 11 the terrorism 
issue will stay, we have to do that, but we can't take away 
from this drug situation. I think the statistics are clearly 90 
percent of all crime is drug-related. That is about the 
national average. And we have to continue to focus on that.
    My investigation, which is limited, on HIDTA, I think most 
of the jurisdictions like the fact that we have Federal, State, 
and local; love the fact that we get some resources from the 
Feds because they have more money than anybody; but some of the 
complaints that I hear that HIDTA, in certain areas, might be 
putting too much money into infrastructure and not enough into 
investigations, infrastructure being salary, rent, whatever 
that is. Do you see that in any of your jurisdictions?
    And I want to start with you, Mr. Romano, since I am from 
Baltimore and you are from Baltimore.
    Chief Romano. Sir, if you could just repeat the question.
    Mr. Ruppersberger. Basically the question is the one 
complaint I hear about HIDTA is that there should be more money 
put into basic investigations than into infrastructure, 
infrastructure meaning salaries, rent, those type of things.
    Chief Romano. HIDTA moneys that are utilized need to go 
beyond just certainly the infrastructure; we need to allocate 
moneys toward that. There is another huge component which has 
to be addressed, and that is in just dealing with witnesses and 
securing their safety and spending moneys to relocate them. In 
Baltimore City, approximately 25 percent of the cases are 
dropped because witnesses fail to appear, and this comes as a 
result of issues like the Dawson case, where a family who vowed 
to stand up and fight lost their lives in that fight.
    Mr. Ruppersberger. I don't mean infrastructures in the 
communities. Really what I am trying to get to, because we are 
in reauthorization, do you feel that the Federal part of HIDTA 
needs to put more money into focusing on your target, on your 
investigations, you know, whatever the issues, or you don't see 
that that is an issue?
    Chief Romano. No.
    Mr. Ruppersberger. OK.
    Chief Romano. It has gotten more and more expensive to get 
this job done in purchasing equipment, in dealing with, as it 
pertains to Title 3, wiretapping, in dealing with companies 
that supply the services. Back in the early 1980's, when Title 
3 on cellular phones were very rare, it seemed as though a lot 
of the companies were willing to help out law enforcement to 
the best of their ability. Now it has actually become business 
for them; we have become just another customer, and the amounts 
of money that are spent are exorbitant.
    Mr. Ruppersberger. Thank you.
    Mr. Souder. Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman.
    First of all, let me thank all three of you for coming 
today, and to thank you personally for what you do to fight the 
problem of drugs and to ask that you express the appreciation 
of this committee and this Congress to your colleagues who do 
it on a daily basis. I think sometimes almost we are at a point 
in the history of our country where we take for granted that 
drugs are just an endemic part of everyday life, and I think we 
need to get much more serious about this so-called war on 
drugs, and I thank all of you and your departments for what you 
do in that regard.
    I think all of us can hopefully agree that we need to 
reauthorize and hopefully to continue to enhance funding for 
all of these efforts, HIDTA and CTAC and every other effort 
that we have in that regard. I would like to ask you a little 
different question, though.
    Ms. McCampbell, you are the only one of the panel whose 
State actually borders one of the two countries that border us. 
I would like to ask you have you made any overall general 
determination of the country of transport, the last country of 
transport through which the drugs are coming?
    Mr. Wiberg, of course, you are closer to the Canadian 
border. Where are these drugs actually being transported 
through? I know we have done a lot to try to deal with the 
country of origin, with Colombia and others, but what country 
are these drugs primarily coming through to get to our country?
    Ms. McCampbell. Well, it depends on which drugs. We 
certainly know the issues, the pseudoephedrine dealing with 
methamphetamine in my State of California. We have found that a 
good portion of the pseudoephedrine is coming over the Canadian 
border down to California. Fortunately, we were able to create 
some laws that restricted sales and the ability to get 
pseudoephedrine in the State. Unfortunately, now they are not 
getting it in California, it is coming from Canada, and then 
being manufactured.
    When you say the drugs themselves, we grow a lot of our own 
marijuana there, but there is marijuana being imported from 
Mexico as well. But, frankly, that is not our most serious 
problem. If you are going to prioritize, methamphetamine is our 
most serious problem, and that I would have to say Canadian 
border and the cookers, if you will, those manufacturing meth 
are coming across themselves, body-wise, from Mexico.
    Mr. Deal. Mr. Wiberg.
    Mr. Wiberg. I think DEA probably can answer that question 
better than myself, but as an observer from the Chicago Police 
Department standpoint, Mexico has to take the lead with us. We 
don't really deal that much with the Canadian aspect of the 
pseudoephedrine coming through. Customs has made some excellent 
cases out of that. I know DEA has made some also. Most of it is 
the cocaine that comes into our city. And now we are graduating 
to white heroin, and that is Nigerian cartels now are becoming 
involved with that very strongly. How they are getting it in, a 
lot appears to be coming out of New York. That is what we see 
here in Chicago.
    Mr. Deal. Mr. Romano, how is it getting into New York? 
Where is it coming from?
    Chief Romano. Well, you know, spending a lot of time in 
debriefing those who have been arrested, especially high level, 
when I retired, I retired out of a New York drug enforcement 
task force office, and I spent a lot of time there doing money 
laundering, you know, looking at the money leaving the country, 
back to the origin countries, and in doing that it was no 
different than tracking the drugs coming in. Basically, this is 
big business, and it is like being in a maze, you get to a wall 
and you find yourself having to look around for an alternate 
means to get through it, and these guys are no different.
    Mr. Deal. Where was the country of transport, at least, or 
where was the money going back to?
    Chief Romano. The money was usually going back to South 
America, finding its way back there. But, again, the money 
aspect, there is a lot of big business here in the United 
States and a lot of people who are willing to assist these 
individuals in getting money out.
    But as far as the drugs coming in, when we stopped up the 
ports of entry, the Mexican borders, when we beef that up and 
we go down to Miami and we beef up the borders and go into New 
York and Canada, we are attacking those individuals coming in 
from South America, from Mexico, so what they do is they have 
actually found a way to go into Europe and come through Europe 
and work their way back into the United States, because we pay 
less attention to individuals coming in from Europe than we do 
those coming in from South America, because the mind-set is 
that drugs come in from South America, so we beef up on the 
borders and we pay no attention to a flight coming in from 
Spain. Spain is a huge, huge point of origin where the drugs 
actually go from South America into Spain, or somewhere in 
Europe, and find their way back into the United States.
    Mr. Deal. Can I ask one quick followup? And, Ms. 
McCampbell, I think it might be appropriate, since you are on 
the border State, are you seeing any more cooperation on the 
other side of the border, on the Mexican side, to assist us to 
try to stop it before it ever gets across the border, or is 
this all just what we are having to play defense on our side of 
the border? Are you seeing any more cooperation?
    Ms. McCampbell. Well, we are definitely playing defense on 
our side, but I think we have definitely received more 
cooperation from Mexico with their attorney general there. He 
seems to be cooperating with us. We have intelligence that 
works with Mexico, I know DEA is working with Mexico, and I 
think there has been a definite improvement over the last few 
years than what it used to be.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    We have been joined by Lieutenant Colonel Steve Moyer. If 
you will stand, we need to swear you in, and then get your 
testimony.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    And, Mr. Bell, if I could go ahead and take summary of his 
testimony before we move to you for questioning.
    Yes, Lieutenant Colonel Moyer?
    Colonel Moyer. Yes, Mr. Chairman. Thank you for the 
opportunity to be here today. It is my understanding that the 
State Police is here to support the reauthorization of issues 
as it relates to the HIDTA. The Maryland State Police has been 
actively a part of this, in cooperation with the Washington/
Baltimore HIDTA since 1994. We have participated in showing 
that the development of the Office of National Drug Control 
Policy are utilized in the management of investigative 
initiatives and administrative responsibilities assigned in the 
Baltimore/Washington metropolitan area.
    Most of the significant accomplishments has been the 
pioneering and the use of a crime mapping tool for drug 
enforcement and operations planning and evaluation in this 
region. It also offers a case explorer software, a case 
management system for law enforcement agencies to help 
facilitate information sharing and intelligence gathering on 
these types of operations.
    Additionally, we have also worked with supporting 
enhancement of technology such as the CAPWIN project, which is 
a communications software piece which helps us have 
interactions with other law enforcement agencies in the region 
so we are not operating on different frequencies when we are 
involved in these types of drug operations.
    Since Colonel Norris has been on board as of January 15, 
his priority has been to focus on homeland security, and over 
the last 18 months, in cooperation with the U.S. Attorney's 
Office, the Baltimore Police Department and Baltimore County 
Police Department, and other entities in the Baltimore/
Washington metropolitan area, we are trying to foster a joint 
analysis center where we can take all information related to 
crime and/or terrorism-related type activities so that we can 
have all the information coming into one center so that it is 
shared with all Federal, State, and local law enforcement 
agencies in the region.
    With this, the Maryland State Police stands behind the 
HIDTA and the initiatives, and with the hopes in future 
cooperation along the lines of information sharing. The three 
major cases of recent that brings rise and shows the exposure 
of how well we do interact would be the Washington area sniper 
killings. HIDTA actually assisted us with the case management 
process on that.
    I am the chief of the Homeland Security and Intelligence 
Bureau. The State Police was tasked with taking those thousands 
of leads, you know, whether it be Federal, State, or local, and 
putting that information together so that law enforcement could 
stay focused on making a successful conclusion to that case.
    I think if you remember the tag number was actually 
obtained by the Baltimore Police Department on a non-
enforcement type contact which linked the adult suspect in that 
case with the tag number, which resulted in the arrest being 
made in Maryland, and we have to give a lot of credit to HIDTA 
for bringing that software forward to be used in that case, 
which brought it to a successful conclusion.
    And that would be the summary of State Police testimony.
    Mr. Souder. Thank you. We will put your whole statement in 
the record.
    Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman.
    I want to go back to something that was said about the 
diversion of funds to homeland security and away from the war 
on drugs in the various States.
    And I believe, Chief McCampbell, you commented on that. 
Certainly it was the desire of many of us that after September 
11 that we move away from the protect the turf mentality that 
seemed to exist throughout law enforcement, regardless of what 
area we were talking about, and based on what we are told these 
days, that has happened in regard to terrorism.
    I am curious as to whether you all believe there is any way 
to expand that concept and start building alliances between 
those who are engaged in the war on drugs with those who are 
engaged in homeland security. And where I am going with this, 
looking at like port security. It seems to make perfect sense. 
And I represent the Houston region. One of the major entry 
points for drugs is obviously the Port of Houston. There seems 
to be a natural crossover there and a natural overlap there 
where folks could work together.
    And I am just curious, Chief McCampbell, could you comment 
on that?
    Ms. McCampbell. Yes. That is a very good point, and, 
actually we are starting to do that in our intelligence system, 
No. 1, our RISS, our Regional Information Sharing network, 
which the HIDTAs, they connect into, and that is how we all 
share our intelligence and put our information in on our drug 
cases. But now we are putting some security information in 
there, and our war room in the Los Angeles Clearinghouse is 
working on deconfliction of our agents going out and looking at 
terrorism, possible suspects of terrorism. So we are doing that 
and we are doing it through the HIDTAs.
    Our ports of entry, I certainly have them in San Francisco, 
that is one of our main initiatives. And we have agents at the 
ports of entry and at the airport, and we are combining our 
efforts with our own Statewide internal homeland security 
units.
    Mr. Bell. Commander Wiberg, do you have any thoughts on 
that?
    Mr. Wiberg. I think we are in the embryonic stages of it, 
to be honest with you. A lot of my people from narcotics 
graduate into the intelligence and are mostly working on the 
terrorists. Unfortunately, from my standpoint, I am not getting 
anything back, and obviously the experienced police officers 
that have that narcotics background fall right into the 
training for the work of the terrorists. I think we need more 
of it.
    I want to say after we recovered that 2,000 kilos, it made 
it very apparent to me that if someone can smuggle that much 
quantity of drugs in the country, what else can they bring in?
    Mr. Bell. Sure.
    Mr. Wiberg. And if we don't have a closer association with 
those people that are responsible for keeping an eye on those 
individuals, then we are banging our heads against the wall, we 
are losing it again; and I don't think we should. I think it is 
very important that we have this multi-agency exchange of 
information, be it on terrorists, be it on drug traffickers.
    Mr. Bell. In looking at the HIDTA program overall, since we 
are talking about reauthorization, and you are not going to 
hurt any of our feelings if you have criticisms of the program, 
are there problems that need to be addressed going forward from 
this point?
    Lieutenant Colonel, we can start with you.
    Colonel Moyer. Yes, sir. The amount of success and 
cooperation we have had with HIDTA in the Baltimore/Washington 
area is phenomenal. As I mentioned, and I can go back to the 
statements that were just made, trying to put this joint 
analysis center together, we will be taking crime information 
as well as the information related to terrorism; and whether it 
is Federal, State, or a local law enforcement agency, and even 
the military branches want to participate with us, we want to 
get all the information into one center so that we can get the 
information back out to all of law enforcement.
    You know, what was mentioned was, you know, a lot of the 
people with the drug experience is from the law enforcement 
arena and others, you know, are going into the terrorism 
identification type work. But we feel it is a benefit to bring 
everything together because, you know, cases that we feel will 
lead you into a terrorist type investigation, are those people 
out there with false identities or doing some money laundering, 
which all can tie back into several of the drug operations.
    So we would support that in enhancing and broadening it so 
it can work together with both, because we feel there is a lot 
of overlap that will show once we put all the data bases 
together.
    Mr. Bell. Anyone else want to comment on changes or 
problems that they would like to see addressed?
    Mr. Wiberg. From the Chicago standpoint, I would like to 
see more initiatives, is one. I don't feel we have enough. And 
that may be because of resources.
    Mr. Souder. Could you explain what you mean by initiatives?
    Mr. Wiberg. More initiatives relative to working the cases 
involving the drug cartels and their correlation with respect 
to the open air drug markets that we have so many of. In every 
situation that we are involved in, be it a wiretap or an 
investigation, it is either popping up to a Nigerian cartel or 
a Mexican or Colombian cartel, and it is all the way from the 
individual who is buying a $10 bag of dope all the way up, and 
it goes that far; and the violence that occurs as a result of 
that.
    These street corners now are tremendous amounts of real 
estate, and they bear a lot of money, and people are willing to 
do whatever is necessary to protect them, defend them, and 
ensure that no one takes them from them. Consequently, we need 
more initiatives along the lines of doing more street 
conspiracy cases with HIDTA involvement. We have HIDTA 
involvement now; we would like to have more.
    Like anywhere else, we are all suffering from manpower 
constraints; Chicago Police Department Narcotics Section is no 
different. And I think with respect to that, I think by having 
the initiatives we can make it more conducive to bring more 
police officers in for more training, whatever.
    One of the things that has not hit Chicago as of yet, and I 
have my fingers crossed, but I am not very optimistic, is the 
methamphetamine. We have had three within the last year, which 
we consider ourselves very fortunate, but it is very apparent 
from surrounding suburbs that it is very close, and it is 
getting closer everyday. And I think that is something that we 
need to really address from a Federal standpoint, along with 
the HIDTA, to be honest with you.
    The second thing that I think is even more important is 
that because the financial gains that are being made by these 
drug operations, we need more involvement from the Federal 
Government relative to financial, to the financial end of going 
after these individuals. As the mayor of the city said, you 
know, you can go in any neighborhood and they will be glad to 
tell you who the drug dealers are, and most of the Chicago 
policemen could tell you that too. It is just, you know, when 
they are driving around in their fancy cars, living in their 
homes that are extravagant, you know, who is going after them? 
And realistically, right now, nobody. Nobody. And that is the 
reality in Chicago, nobody is going after the financial end of 
these individuals. And if it is being done, it is being done on 
a very small basis, and that is not acceptable when you have a 
street corner that can generate the kind of money that they are 
generating.
    Mr. Bell. Chief McCampbell.
    Ms. McCampbell. There has been, if you will, in the rumor 
mill, or talk of consolidating the HIDTAs and putting them 
under the umbrella of, say, the OCDETFs or some other Federal 
being, and I would like to emphasize, and I did mention it in 
my testimony, but I would like to emphasize the importance of 
keeping the balance of having Federal, State, and local 
participation and acting as the board of directors, because it 
is my belief that if we went under just the OCDETFs or under 
just the straight Federal guidelines, if you will, that we 
would lose participation, and I think like a local sheriff 
would go why do I need to put my agents in another Federal 
program? And I think the structure of the HIDTAs, where you 
allow the sheriffs and the chiefs and the State and locals to 
be on the board, I think that is an important presence, and I 
think it is an excellent part of the HIDTAs and one that I hope 
does not go away.
    Mr. Bell. Thank you.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I want to thank Chief Romano and the 
Lieutenant Colonel Moyer for being here.
    Let me just ask you all a few questions. Chief Romano, you 
talked about this whole issue of 25 percent of the cases being 
dropped because of witness problems and, more specifically, I 
guess, witnesses being threatened. I live in the inner city of 
Baltimore and I talk to lks all the time, and people are scared 
to death. I believe that you can see crimes committed in my 
neighborhood and nobody would tell, and I don't think the 
Dawson case helped. Matter of fact, I think it hurt 
tremendously.
    I am just wondering how do you deal with that kind of 
issue, I mean, that is, of threatened witnesses? Because I 
think if we are not careful in this country, we will find 
ourselves in a situation like they find themselves in Colombia, 
where you just don't get the cooperation and the drug dealers 
take over.
    Chief Romano. Well, this problem goes beyond simply having 
someone pick up the phone and make a call and having the police 
respond and making an arrest. We, as a police department, have 
to forge a tremendous relationship with the community.
    In dealing with the prosecution and the cases, we have to 
make the best cases that we can make so that the community sees 
an individual taken off the street, brought to justice, and 
then incarcerated, because too often what they are seeing is 
that an individual, they will pick up a phone and call in 
about, will be back out on the street a week, a month, a year 
later. There is no sense of feeling that you e safe when a 
person that you are directly responsible for putting away is 
back out there an hour, a day later.
    So certainly us, as a police department, we need to make 
the best cases that we can make. We have to go out there and 
speak with the community and let them know that there are 
avenues available to them so that they can be safe. Take a 
family and relocate them, almost like witness protection. Let 
us do this, but, again, to do things like this we need moneys.
    But our relationship with the community is probably the 
most important part of this whole process, and just trust, 
trusting the police, because as much as they don't like the 
drug dealers, there are a lot of other issues that they have to 
deal with, and in the process we will find a way to forge a 
relationship with them and allow them to feel as though there 
is safety if they come forward.
    Mr. Cummings. Lieutenant Colonel, did you want to join in?
    Colonel Moyer. The comment that I can make is I think you 
were well aware that I was on loan with the Department of 
Juvenile Justice for the last 3 years, helping them get through 
their issues there in Maryland, and still what we run into is 
what was just mentioned; it is the ability to keep, as far as 
juveniles go, keep those youths off of the streets for reasons 
of the problems that they are creating in their neighborhoods 
when they go back home. But there is also that issue of 
offering some type of protection when they are involved or when 
they become a target or their family becomes a target because 
of their involvement in the drug trade in Baltimore.
    I think what was mentioned was through Steve Hess and the 
U.S. Attorney's Office there are victim assistance and witness 
assistance type programs, but, again, it is a funding issue and 
being able to have the capacity to do that for certain cases 
which may not be prosecuted by the U.S. Attorney's Office and 
rests locally with the State's attorney's office.
    I know in having personally talked to some of the youth 
that were detained at Cheltenham and at the Hickey School, 
there were times when they would act up intentionally just to 
stay there on the grounds of those two schools so they would 
not return to the street and be confronted with people that 
they may owe some money to from a drug transaction.
    But, again, it boils down to having the right amount of 
funding available to offer that type of protection for the 
cases, which are not the huge case that is going before the 
U.S. Attorney's Office.
    Mr. Cummings. I see my time has run out, but I want to 
thank all of you for what you do everyday. This drug problem is 
a very, very serious problem, and sometimes I don't think that 
a lot of people understand how devastating and how far-ranging 
it is and the many families that it affects; and you all put 
your lives on the line everyday and your welfare on the line 
everyday to make a difference, and we really appreciate what 
you all do, and we want to make sure that we do everything in 
our power to help you do what you have to do. And this 
subcommittee has been very, very supportive of law enforcement 
and at the same time been very supportive of trying to bring 
treatment to our communities so that we can have that dual 
approach, addressing the law enforcement portion but also 
dealing with the treatment and prevention so that you don't 
have as much of a problem to deal with.
    And so we thank you all for being here. We really 
appreciate it.
    Mr. Souder. Thank you. We will have additional written 
questions, but I wanted to pursue just a couple of things here 
yet at the end of this panel.
    We made a tactical decision, in putting this panel 
together, not to have HIDTA directors themselves, who would 
have a direct vested interest, but to have representatives of a 
number of different narcotics agencies to tell you your 
reactions of the HIDTAs. We have been meeting with HIDTA 
directors all over the country, getting all sorts of 
information in, and it is a little like Garrison Keeler and 
Lake Wobegone, all the men are good looking, all the women are 
strong, and all the kids are above average.
    And the problem we get is everybody is above average; we 
don't get any problems identifying. But a couple have jumped 
out here, and I particularly wanted to ask Mr. Wiberg a couple 
of questions.
    I don't think you want to give the impression, nor do you 
mean to give the impression, that in Chicago it is worse than 
everybody else, but you may have given us a window that we do 
not often get to see, when you said that there aren't 
investigations occurring. I want to zoom in a little bit on 
what you meant about the drug markets and the Colombians and 
the Mexicans and so on, because we are paying, in Chicago, for 
example, we have huge agencies that are dealing with trying to 
traffic back and trace that back to Colombia and Mexico. Yet 
you are saying they aren't being pursued, and you are the 
commander of the Narcotics Division of the Chicago Police 
Department.
    What precisely are you saying? Are you saying there is not 
the efforts; it has been cut back?
    Mr. Wiberg. Please understand, Mr. Chairman, we are 
pursuing and Federal agencies are pursuing the drug dealers. 
What is not being pursued is the financial end at all. At all. 
It is not being pursued from the individuals that are the gang 
leaders, gang structure of selling drugs.
    Mr. Souder. Not going after their assets under asset 
forfeiture law? Is that a U.S. attorney's problem?
    Mr. Wiberg. To be honest with you, we don't see IRS 
involved in anything. These individuals have been conducting 
business for a number of years, and I don't think they are 
paying taxes, and IRS, we have given them information and it 
just falls on deaf ears, to be honest with you. There is no 
involvement on their part.
    Mr. Souder. Have there been cases made by the police 
department working with ATF, with DEA, with FBI, where the U.S. 
attorney has gone after the money?
    Mr. Wiberg. Yes.
    Mr. Souder. And then it is not being followed through is 
what you are saying.
    Mr. Wiberg. Definitely not. There is no follow-through on 
the part of IRS.
    Mr. Souder. Are you part of and does the HIDTA in Chicago 
have subgroups like was alluded to in Mr. Romano's testimony, 
and which we have seen in other areas, where you have multiple 
different task forces taking care of different problems?
    Mr. Wiberg. Yes.
    Mr. Souder. Is this one of them? Why wouldn't this be one?
    Mr. Wiberg. Well, let me say this. They have been invited 
to the table; they just haven't shown up yet.
    Mr. Souder. IRS?
    Mr. Wiberg. IRS.
    Mr. Souder. But that is the only agency?
    Mr. Wiberg. And we have presented to IRS.
    Mr. Souder. Have you gone to Treasury as opposed to IRS? 
Because Treasury is the prosecuting.
    Mr. Wiberg. I understand, sir. The mayor gave to whomever 
10 names of people that we had worked, that we know had 
tremendous amount of assets, and where that is at, I don't 
know.
    Mr. Souder. OK. I appreciate your frankness, because that 
is what we are trying to figure out.
    Mr. Wiberg. But please don't misunderstand. We have a 
tremendous effort on the part of working the cartels for 
enforcement by everyone, everyone involved. The problem rests 
with the financial end, like I said; it is not being done.
    Mr. Souder. The other question I wanted to ask, which now 
that I am over 50 my mind occasionally drifts. I was reading 
something else there.
    Let me see if it comes back to me in a second. Well, I lost 
it.
    Does anyone else on the panel have any additional 
questions?
    Mr. Ruppersberger.
    Mr. Ruppersberger. The prior panel, I think it was Mr. 
Burns that testified, and I asked him the question about 
resources being taken away from Federal law enforcement because 
of the terrorism issue, and all three members of the panel here 
said that clearly is an issue.
    Now, from your perspective, from more the local, State 
level, do you see that resources are also being drawn away from 
the Federal law enforcement agencies as a result of what is 
happening with the terrorism issue? Because we are trying to do 
reauthorization, and we want to focus on what is right, and we 
know that we need the resources and we know that we have to 
deal with the issue of terrorism and we have to deal with the 
issue of drugs, narcotics. Now, you know, if we need more 
resources, more probably in the terrorism so that you won't 
lose resources, do you see that also on a Federal level too?
    Mr. Souder. That is my question as well. Let me try another 
angle, if I may.
    Mr. Ruppersberger. You gave me the ESP.
    Mr. Souder. Yes.
    This is a touchy subject, and I am the new homeland 
security, and I am particular on the border committee, and we 
inserted, with my initiation and the Speaker pushing it, a 
narcotics connection inside the new Department of Homeland 
Security. But this is indisputable, a couple of the facts. FBI 
has been asked to concentrate on homeland security, not 
narcotics, and they are pulling officers off the case. Customs 
and Border Patrol are trying to sort through what their 
responsibilities are, given the fact they are now under 
homeland security and that is their No. 1 priority.
    Presumably, if they are following orders at the local 
level, you have seen a reduction in Federal cooperation in drug 
enforcement in those agencies. Is that true?
    Colonel Moyer. I think what we are seeing in Maryland is 
that we are in a transition, you know, right now, and having a 
meeting with Gary Bald, who is the special agent in charge at 
the Baltimore office, we know that they are redirecting some 
resources, but I don't think we felt the overall impact of what 
the Bureau's involvement will be there in the Baltimore area.
    And I can hand it off to my colleagues from there.
    Mr. Ruppersberger. Also you are DEA also.
    Colonel Moyer. And DEA, correct.
    Chief Romano. Based on what I have seen so far, it seems as 
though our representation in the task forces and the assistance 
that we are getting from the task forces has been fine. I 
basically arrived here in Baltimore yesterday, but have been 
here several weeks ago, over the past couple weeks to start 
looking at what needs to be addressed here; and the areas as 
they pertain to our Federal task forces, whether they be 
Customs task forces, DEA task forces, FBI task forces, there 
seems to be a very good working relationship with them.
    Mr. Ruppersberger. My questions is not the working 
relationship. Are resources being taken away, manpower, and 
moved over to the terrorist issue? And if it is the case, I 
mean, we want to know about it so we can try to raise an issue. 
My issue, which I stated before, is that we need to encourage 
the President to give more resources to first responders so 
that the resources do not have to be taken away from your goal 
and mission, which is to fight drugs and arrest people with 
drugs. And that is what I am looking for in my question.
    If you haven't been here that long, you probably don't know 
yet, because you don't know what was there and what is not 
going to be there, so probably a month from now you will be 
able to answer the question a lot better.
    Chief Romano. That is correct, sir.
    Ms. McCampbell. We have definitely seen, in particular, our 
military, our National Guard has been taken off almost all of 
our drug cases. They were very dominant in helping us with our 
weed and seed programs with our marijuana eradication. They 
were actually out there whacking weeds with us up in the 
mountains, and they have all been taken off that.
    Now, I understand military, it is a whole separate thing, 
but this is our State, our National Guard, which has always 
been very helpful in drug eradication in our State. That is 
one.
    The second part of that is FBI. They were very helpful, we 
worked very closely with them on drug cases until September 11, 
and they were part of our task forces, and almost all of them 
have been taken out of the drug business and their resources 
are all going to, you know, homeland security type of issues.
    DEA I personally have not seen that their mission has been 
decreased in working drugs from a State perspective.
    Mr. Ruppersberger. So as a result of that, is that 
impacting on your abilities to do the job that you need to do?
    Ms. McCampbell. Yes.
    Mr. Ruppersberger. OK.
    Mr. Souder. She didn't mention Customs and Border Patrol.
    Mr. Ruppersberger. What?
    Mr. Souder. She didn't mention Customs and Border Patrol. 
Have they had a reduction in the amount working on narcotics as 
opposed to terrorism?
    Ms. McCampbell. Yes, they have. We certainly had much 
Border Patrol participation down at the border. Actually, to 
some extent they were very helpful, because when they were 
looking for terrorists, as opposed to drugs, we were getting 
bad people and drugs that were at the border. But really their 
mission, I think, has been much more toward homeland security 
now than it has looking for drugs at the borders.
    And as far as Customs, they certainly participate in our 
task forces, but they have been kind of in limbo right now 
because some of them, at least on the street level, don't 
exactly know who or where they are working because of the 
combining of them into homeland security. I think they are 
struggling with identity right now.
    Mr. Wiberg. If I may, I think it is the situation, at least 
in Chicago, that everybody is doing more with less. The 
relationships we have had with DEA go back as far as I can 
remember. We have good relationships with all the agencies, but 
we are all doing more with less. September 11 has affected 
every agency within the Chicagoland area. Customs is drifting. 
A lot of times we are being involved now with assisting Customs 
with cases that they have, taking some of my officers and 
assisting them in cases they have, which do not directly have 
anything to do with the narcotics end of it, but maybe homeland 
security.
    But all the agencies that I deal with, all the Federal 
agencies are doing more with less, and we are trying to 
combine, and I think, you know, it is becoming very apparent 
that we become more effective when we are all together because 
there isn't a lot of us independently, to be honest with you.
    Mr. Ruppersberger. No further questions.
    Mr. Cummings. I think basically what Chairman Souder and 
Mr. Ruppersberger are aiming at is that we have always been 
concerned about balance, having a balance. I have often said 
that while we are fighting terrorists and fighting outside 
forces, we have to be carful that we don't erode from the 
inside or implode. And I just wanted to figure out, I mean, do 
you all see the problem as such, just to put the final question 
on what they have been saying, are there things that you would 
like for us to do as a Congress to help you? Do you think the 
problem is that bad or do you feel confident that it is just a 
temporary situation?
    For example, the National Guard helping you out, is that 
something that you feel is very important right now, or do you 
feel that, you know, you can kind of go without it? And if you 
can go without it, what impact does it have?
    You know, those are the kind of things that we have to have 
a pretty good understanding of because we are all of us, one 
thing that Democrats and Republicans agree on, we don't agree 
on a whole, whole lot, but we do agree that the people's taxes 
should be spent effectively and efficiently. And so, you know, 
we are just wondering what would you have us do, if anything?
    Ms. McCampbell. I would like to respond to that. I think 
what I am very concerned about, being in the narcotic business, 
is that with the creation of homeland security and the 
surrounding issues of that, that we in narcotic enforcement are 
going to get lost. It certainly has put narcotic enforcement to 
the back burner in my State, that is for sure, and I would 
certainly ask you for continued support, continued funding. I 
need the help of the National Guard, and they are virtually 
closing down on their drug interdiction business that they had 
been in. I need that help from them. I need the FBI to help on 
our local task forces and our local areas. And certainly I 
can't work without DEA. I mean, they are as important as 
anybody can be in our State.
    And so I don't know exactly what the answer is, I suppose 
it is always funding, but if there is some way that we can make 
sure that narcotic enforcement doesn't fall to the background 
under the shadow of homeland security, we need to do that.
    Mr. Cummings. When the homeland security legislation came 
through, Chairman Souder and I were very concerned about 
narcotics efforts, law enforcement efforts not getting the kind 
of attention that we thought it should continue to get, and we 
had put in an amendment to make sure that there was a person in 
Homeland Security to address the issue of drugs in this 
country. We didn't get the level that we wanted, but we did 
make sure that we got somebody in there to keep their eye on 
the drug problems here, because we were so afraid that some of 
the things that you are talking about right now would happen, 
and we need to kind of figure out how we get to the powers that 
be to begin to look at some of these issues.
    Ms. McCampbell. Just in response to that, I believe the 
appointment is Mr. Mackin. And I had an opportunity to meet 
with him very briefly at the National Coalition of Narcotic 
Officer Association's meeting last week, which, by the way, 
Chairman Souder was awarded a very prestigious award of being 
in the House of Representatives, the most honored person in the 
House of Representatives. But I did have a chance to meet with 
Mr. Mackin last week, and he actually has contacted me and is 
going to be coming out to California to discuss these exact 
issues. So I was quite pleased to hear that.
    Mr. Cummings. So now you know who was responsible for Mr. 
Mackin even having a position to get. It is nice to take credit 
for something up here for a change.
    Congratulations, Mr. Chairman, by the way.
    Anybody else want to respond to that?
    Colonel Moyer. The only thing that I would like to add to 
that is that I think, like I said, we have a great working 
relationship with our partners. You know, the FBI has admitted 
that they will be backing away. I think we need to see who will 
be picking up that extra load. But you have already mentioned, 
I think, with the focus on enforcement, as well as treatment, 
needs to be paramount, and especially in the Baltimore area, 
treatment. I would echo what you have already said, that if 
there is dollars that can come toward Maryland in that effort, 
that would be great.
    But as far as enforcement goes, a lot of the enhancements 
that have come through HIDTA have been from a technology point 
of view. The ability to have deconfliction so you don't have 
officers from different agencies or different task forces 
overlapping is very important, but, additionally, the 
surveillance equipment ability, to be able to watch particular 
hot spot areas or drug corners and marketing type areas where 
you don't have to put the human resource there undercover on 
the street, where you can monitor the activity from a distance, 
would be a huge enhancement for all of us.
    Mr. Wiberg. Might I also interject more funding for hiring 
more agents and more police officers. Those are the first 
responders, and we are running out of them.
    Mr. Cummings. Thank you all very much.
    Mr. Souder. I thank you for your testimony. As Mr. Cummings 
said, it was one of only two changes in the original markup of 
the bill. We are very concerned about the long-term trends. I 
do believe the border security will be a benefit; in other 
words, as we tighten that up, we will catch them at the borders 
more.
    We are concerned in obviously having Asa Hutchinson and Mr. 
Bonner from Customs there, they were former DEA guys, but I 
think there will be a narrowing in of DEA being the primary 
Federal, and that means they can't take a reduction; and that 
hopefully less is more will work, because we are in a very 
difficult situation as advocates of the anti-narcotics effort. 
Either we have to argue that we haven't been efficient in the 
past or that when we reduce resources going to narcotics, we 
are going to have a rise in narcotics; and we don't like either 
one of those points.
    But we are now at that position in the U.S. Congress is the 
less is more will work to a point, but we have to show the 
specifics or we are going to look at longer term questions as 
we see resources diverted, as they certainly are and we are 
hearing on a regular basis.
    But thank you each for your work. Thank you for your 
testimony, and appreciate your coming in today. If you have any 
further additions you want to add to the record, send them to 
us.
    Mr. Souder. If the third panel will now come forward. Mr. 
Ron Burns, the chief of the Lakewood, CO Police Department; Mr. 
Peter Modafferi, chief of detectives, Rockland County, NY 
District Attorney's Office.
    The third panel is one of the less glamorous, in Washington 
terms, issues in the supply of equipment in the OCDETF program, 
but it is one of the most important things at the local level.
    If both of you will remain standing, I will give you your 
oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    Thank you for your patience. This has been a long hearing, 
but it will be most likely the only hearing, particularly on 
the subject that you are about to address, and one of the most 
important programs in the Nation regarding local law 
enforcement. So thank you for taking the time to come to 
Washington and be willing to testify.
    Chief Burns.

STATEMENT OF RON BURNS, CHIEF, LAKEWOOD, CO POLICE DEPARTMENT; 
 AND PETER MODAFFERI, CHIEF OF DETECTIVES, ROCKLAND COUNTY, NY 
                   DISTRICT ATTORNEY'S OFFICE

    Chief Ron Burns. Chairman Souder and distinguished members 
of the subcommittee, I would like to thank the Subcommittee on 
Criminal Justice, Drug Policy and Human Resources for the 
opportunity to testify regarding the effectiveness of the 
Counterdrug Technology Assessment Center [CTAC]. The role of 
CTAC in the research and development of technological measures 
for Federal and local law enforcement agencies has benefited 
the efforts of the Lakewood Police Department and the Federal 
and local agencies in the Denver area.
    The city of Lakewood is located in the metropolitan Denver 
area. There are 43 local, county, and State law enforcement 
agencies, in addition to several Federal law enforcement 
agencies in that area. Drug trafficking, crime, and exceptional 
incidents have no jurisdictional boundaries. Collaboration and 
multi-jurisdictional efforts are essential to combating illicit 
drug trafficking and crime. Our law enforcement agencies 
operate typically with incompatible radio communications 
systems. During multi-jurisdictional efforts we cannot 
communicate with each other. Our department has experienced 
these difficulties on many occasions, including the Columbine 
incident.
    In September 2000, the Lakewood Police Department hosted an 
evaluation of various technologies that link the communication 
signals from one radio, and it is typically from a diverse 
system, directly into all other radios selected for 
interoperability. The evaluation was successful and the system, 
the ACU-1000, was selected and made operational in 2001. The 
cost of the system, and this was for the equipment, was 
$194,971 and was entirely funded through the ONDCP, CTAC, and 
the Navy's SPAWAR Systems Center in San Diego. Installation was 
very smooth and the cooperation with coordinating Federal 
agencies was excellent.
    Today the system is operational on a 24 hour, 7 day a week 
basis and hosts 15 local, State, and Federal agencies. The 
Lakewood Police Department's Technical Operations Unit provides 
ongoing maintenance and support. During 2002 the system was 
used on the average of once a day, or almost 38 times a month, 
for inter-jurisdictional operations. Very frequently, DEA, U.S. 
Customs, the FBI, and local law enforcement use the system in 
drug investigations. Their surveillance includes the use of 
aircraft linked with the ACU-1000 to follow suspected drug 
dealers. The system was also used in a bomb threat at the 
Denver Federal Center, and in the summer of 2002 to coordinate 
emergency response to front line firefighters during the worst 
forest fire in Colorado history. This technology has not only 
solved a communications problem, but also enhanced the overall 
cooperation among participating agencies.
    Cooperation among local, State, and Federal agencies is 
critical in the investigation of illegal drug operations, crime 
reduction, and large-scale events, and now with the threat of 
terrorists' activities. The ability of public safety agencies 
to communicate is absolutely essential. The ACU-1000 radio 
interoperability successfully solves this communications issue 
by linking radio systems from various and diverse systems or 
signals. Hopefully, this system will be expanded to include 
entire metro areas and to link with other areas of 
interoperability systems across the country, building a 
national network.
    Thank you for the opportunity to provide a success story of 
the cooperation between Federal agencies and local law 
enforcement. This project is a resounding success and could not 
have been accomplished without the House Committee on 
Government Reform, and the Subcommittee on Criminal Justice, 
Drug Policy and Human Resources, and CTAC. Thank you.
    [The prepared statement of Chief Ron Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.035
    
    [GRAPHIC] [TIFF OMITTED] T9455.036
    
    Mr. Souder. Thank you very much. It is good to hear a 
success story.
    Mr. Modafferi.
    Mr. Modafferi. Good afternoon, Chairman Souder. Thank you 
for this opportunity to speak to you this morning in support of 
the Counterdrug Technology Assessment Center.
    My name is Peter A. Modafferi, and I am the chief of 
detectives of the Rockland County, NY District Attorney's 
Office. I also chair the Police Investigative Operations 
Committee of the International Association of Chiefs of Police, 
and I sit on a number of boards, working groups, and committees 
concerned with issues related to criminal investigations. Those 
positions include, among others, serving as a Technical Expert 
for CTAC's Technology Transfer Program and serving as a member 
of the FBI's Law Enforcement Executive Forum, two projects 
which are concerned with how technology affects law 
enforcement's ability to conduct criminal investigations.
    In the Rockland County District Attorney's Office I am 
responsible for the supervision of criminal investigations in 
Rockland County, including those conducted by the Rockland 
County Narcotics Task Force. The Task Force is an investigative 
unit under the District Attorney which is comprised of 
investigators and support staff from eight different agencies. 
It is under the operational command of a director, Captain 
Joseph Tripodo of the New York State Police, and the assistant 
director, William Manti, a Supervisory Investigator with the 
District Attorney's Office.
    I offer this explanation of our Drug Task Force to 
emphasize the need for and the successes garnered from 
interagency cooperation. Cooperation is essential at all levels 
of government, and it is the foundation on which the 
Counterdrug Technology Assessment Center is built.
    There are two parts of the CTAC program that Rockland 
County and law enforcement nationwide have benefited from: the 
Technology Transfer Program and the Research and Development 
Program.
    The Technology Transfer Program provides State and local 
law enforcement agencies with technologies without encumbering 
the budgets of the applying departments. Through that program, 
Rockland County has been able to maintain its ability to 
conduct court-authorized or electronic surveillance while 
investigating mid to upper-level drug trafficking 
organizations.
    As you are aware, the technology in the communications 
industry has changed dramatically over the past decade. Those 
changes have severely limited the ability of law enforcement 
agencies to conduct investigations utilizing electronic 
surveillance.
    The Technology Transfer Program has supplied Rockland 
County with equipment which is critical to our mission. One 
such piece of equipment is a digital wiretap system, Voice Box 
3. This allows us to conduct electronic surveillance in 
accordance with changes brought about by the Communications Act 
to Assist Law Enforcement. In addition to supplying these 
systems, CTAC maintains contact with the agencies that receive 
equipment, and through training and consultation address the 
needs and issues that arise. Our experiences with the support 
we receive from CTAC has been outstanding.
    In addition to TTP, Rockland County has been involved in 
research and development projects through CTAC. While these 
projects are manpower-intensive for Rockland County, the county 
and other agencies benefit greatly when projects that are 
developed become products made available to law enforcement 
through TTP.
    CTAC makes it possible for agencies like Rockland County 
Narcotics Task Force to do its job effectively. This was 
dramatically proven when, during investigation which culminated 
in June 2002, the Rockland County Narcotics Task Force found a 
gaping hole in our border security. While in the course of 
intercepting conversations pertaining to smuggling of cocaine 
through Kennedy Airport, we were shocked to hear the drug 
traffickers we were targeting discuss a highly successful and 
lucrative alien smuggling operation. We immediately notified 
DEA, Customs, and INS, all of whom joined our investigation.
    In addition to the 51 drug-related arrests prosecuted by 
the District Attorney's Office, the U.S. Attorney's Office of 
the Eastern District of New York prosecuted seven individuals 
for passport fraud and alien smuggling. The Rockland County 
Narcotics Task Force, utilizing equipment made available to us 
through CTAC, found and helped address a serious weakness in 
the security of our Nation.
    Local law enforcement is faced with technological change 
everyday. We need the Counterdrug Technology Assessment Center 
to continue to be effective.
    The Federal Bureau of Investigation has done an outstanding 
job of implementing the Communications Act to Assist Law 
Enforcement. There are, however, obstacles yet to be addressed. 
CTAC helps us address these needs. In my opinion, the 
communication industry views law enforcement as a profit 
center; they charge exorbitant fees to make connections 
necessary to conduct court-ordered electronic surveillance.
    Law enforcement agencies will continue to work with CTAC to 
seek technical solutions to limit the impact of this problem; 
however, these exorbitant phone company charges may soon 
eliminate our ability to conduct electronic surveillance. This 
would be devastating to the safety and security of our Nation.
    I would like to thank Dr. Brandenstein, who is seated to my 
left, for his leadership in this wonderful program, and I would 
like to thank you for this opportunity to speak before you.
    [The prepared statement of Mr. Modafferi follows:]

    [GRAPHIC] [TIFF OMITTED] T9455.037
    
    [GRAPHIC] [TIFF OMITTED] T9455.038
    
    [GRAPHIC] [TIFF OMITTED] T9455.039
    
    [GRAPHIC] [TIFF OMITTED] T9455.040
    
    [GRAPHIC] [TIFF OMITTED] T9455.041
    
    Mr. Souder. Thank you both for your concise testimony. We 
will insert the entire statement in the record. It is important 
that we build on the hearing record on reauthorization, the 
importance of this program, and it is important to local law 
enforcement.
    Could you each tell us how you and your agencies first 
learned about the Technology Transfer Program?
    Chief Ron Burns. I have been with two other agencies, 
actually three other agencies other than Lakewood, CO, and we 
heard about the Technology Transfer Program primarily through 
our involvement with HIDTA, our involvement with DEA, and then 
through local and federally based task forces.
    Mr. Souder. Do you get the impression in Colorado that it 
has kind of been a rolling process, that as more people get 
access to the technology, people ask them where they heard 
about it and then it is connected, or do you think it is more 
top-down?
    Chief Ron Burns. No, I think that is the case. You know, 
technology is continually developing, and as new items come 
into use, as new technologies are discovered, you know, one 
agency will get them and then the word will spread.
    Mr. Souder. Mr. Modafferi, could you tell us how you and 
your agency first learned, and then how you think others learn 
in the primary way? Because the difference is that had it come 
top-down and every department known about it, we would know 
kind of the finite about a demand. But if it has been kind of a 
trickle in, it means the demand is going to build as more 
people hear about it from other local departments and 
subdepartments.
    Mr. Modafferi. That is an interesting question. We are very 
pleased with what we have received from CTAC, and we hope we 
continue to receive as much as it spreads out with our success.
    We first heard of CTAC through a former chief investigator 
with the New York State Organized Crime Task Force who became 
an employee of CTAC. He got us involved; we have had tremendous 
successes, and our success has been noted by the media in the 
New York metropolitan area and I think has gotten people to 
call us and ask how you did that, where did you get that 
equipment from, and we have promoted CTAC.
    The other way that I am promoting CTAC nationwide is 
through the Police Investigative Operations Committee of the 
International Association of Chiefs of Police. Dr. Brandenstein 
has appeared before the Committee and explained the program; he 
has stood before it and been grilled on questions, and he has 
been very favorably received. So people leave the different 
IACP functions and conferences with a better knowledge of CTAC, 
and I am sure that played a role in the growing demand for it.
    Mr. Souder. What is interesting is when he came to Fort 
Wayne and the areas north of Fort Wayne, a fair number of 
people were exposed to it for the first time. Some had heard 
that other departments had it, and many of the departments 
already had applied or had gone off on their own because they 
had heard earlier. It is a combination, but my feeling is that 
it is a building demand.
    Is there anything in the process that you believe could 
either be streamlined or improved, as we look at 
reauthorization, as far as from the local law enforcement 
standpoint as far as clarity, what it takes to go through, the 
amount of paperwork, clarity, or even other types of technology 
that clearly would help in the anti-narcotics effort?
    Chief Ron Burns. Well, actually, I asked that question of 
the technicians and the operational people who really were at 
the grassroots level developing this system, you know, were 
there any problems whatsoever. There were none. I mean, it was 
very, very smooth. The development, the testing of the 
equipment, the installation all went very, very smooth; I 
couldn't have asked for any more cooperation.
    Mr. Modafferi. From my experience, it has been an 
outstanding relationship. I also sit as a technical expert, 
regional expert for CTAC, and I review the applications that 
come in from the northeast, and as word spreads of CTAC, the 
numbers increase, the volume of the applications, and I do find 
that certain departments are asking for equipment that they 
couldn't possibly utilize; an eight-man police department in 
the State of Maine will ask for a wiretap system that costs a 
tremendous amount of money, but they wouldn't have the 
personnel to conduct a wiretap.
    So it is something that I have spoken to Dr. Brandenstein 
about and it is something that we are addressing. I think when 
we talk about the CTAC program, we have to make people 
understand where they fit into it, as opposed to they can just 
get all this equipment that would be great to have; but logic 
has to enter into this someplace, and how do you logically put 
that equipment to best use.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Is the research and development duplicative 
of the National Institute of Drug Abuse, what they do? I mean, 
is it the same kind of thing?
    Mr. Modafferi. Not at all. The research and development 
program that we are involved in with CTAC is specifically 
related to conducting drug investigations to a degree that it 
is very specific projects that we work on, very specific 
equipment that couldn't be used anyplace else in the criminal 
justice arena but narcotics investigations. It is region-
specific, it is case-specific, and hopefully it is stuff that 
can be used in other areas, but in other areas by people with 
similar needs.
    Mr. Cummings. You know, they say that as we develop our 
technology, the folks who want to skirt the technology are 
constantly coming up with new things to get around it. I mean, 
do we have that; is that a major problem?
    Chief Ron Burns. Well, I would say technology is 
continually evolving, and, first of all, we have to adjust our 
enforcement and our efforts to be flexible enough to respond to 
that, but then the development of our technology I think 
continually has to be evolving. And as something is developed, 
something else may be developed to counteract that. So I guess 
the answer to that question is yes, it is continually changing 
but, yes, we have to continually respond to that change 
technologically.
    Mr. Cummings. Did you have something? I am sorry.
    Mr. Modafferi. I am sorry, sir. In preparing my statement 
for today, I was going to go into more detail about what we 
have actually accomplished through CTAC, but we don't put that 
out in our press releases. I would be hesitant to speak about 
it anywhere because we have made some tremendous, tremendous 
technological advances that we don't want the bad guys to know. 
If they knew we knew, they would change their approach, and at 
this point I think we are doing some things that they just 
don't know we can do.
    Mr. Cummings. Well, I will tell you I agree with you. I 
think, you know, I don't want them to know what you know 
either. And that is the very reason why I asked that question, 
because I know that when you have the amounts of money that are 
involved here, they can certainly get folks or find people who 
are probably almost, if not just, as sharp, as the people who 
do what you do. And so I was just wondering about that.
    When I see how far technology has come just in the last few 
years, I mean it has been astounding. When I think that I can 
hold one of these little things and be able to send messages 
all around the world from just sitting right here, it is just 
astounding to me.
    So I just was wondering, you know, exactly how you go about 
making sure that you keep up with what they may be trying to do 
to counter what you do. And so apparently you feel like you 
have been very effective, and I assume you would, like 
everybody else, love to see more money in the program. Is that 
right?
    Chief Ron Burns. Absolutely. And, you know, I think we have 
made tremendous strides with technology. I mean, in my days 
working narcotics on the street, you know, I had a body bug 
system that hardly even worked at all, and the technology today 
is just tremendous, and I would like to see more support.
    You know, in terms of this radio interoperability system, 
it has been so helpful in regional investigations and drug 
investigations, or counterterrorism investigations, and that is 
something that probably wouldn't have been thought of or we 
were able to do. We could not have accomplished this, you know, 
5 years ago as easily, so it is just incredible the support 
that we have had.
    Mr. Cummings. Thank you all.
    Mr. Souder. Could you describe to me, Mr. Modafferi 
probably would know most here, the process of when new 
technologies are added? Is it a combination of something 
becomes available at the national level that can be offered and 
requests that are coming up from the local communities?
    Mr. Modafferi. With CTAC, we have sources meetings 
periodically throughout the year in which we, in working with 
the SPAWAR people and the Fort Huachuca, who does the technical 
assistance for CTAC, we develop what we think should be in the 
program and we ask vendors what they think they have to offer 
the program, and we come out of these with new products that we 
put into the booklet that makes it available to local law 
enforcement.
    Mr. Souder. One other question regarding the, in general, 
on this program as to how it works. You mentioned an example of 
Maine possibly wanting a system that they didn't have the 
ability to utilize. And I believe I know the answer to the 
question, but I want to have it in the record and understand 
how you measure that and are there requirements if you get this 
equipment you have to take X amount of training, you have to 
have somebody to staff it?
    Mr. Modafferi. Yes, before any training is given out by 
CTAC, they have the mandatory training sessions around the 
country. But before it reaches that point, it goes through a 
series of evaluations by different CTAC staff people, up to and 
including myself, looking at the northeast region, and very 
often I will look at an application and I will say, you know, 
this really isn't appropriate, and I will call that police 
chief and talk to them about what else is available in the 
program that he might be able to get a better bang for our buck 
with, ours being the public's, it is taxpayer money.
    But once it is given out, it is seriously monitored, and if 
they can't pass muster on the training, it is not given.
    Mr. Souder. And, Mr. Burns, when you received your 
equipment and have looked at other departments in your region, 
as well as your own, did you see that as also a request to you 
about whether you will adequately staff or have maintenance 
abilities, those type of things?
    Chief Ron Burns. Well, our staff was trained in the 
operation of the equipment and then effectively took over the 
ongoing maintenance with the help of CTAC. So we conduct our 
own maintenance and system upgrades and ongoing maintenance 
currently with our own staff, and they were trained through 
CTAC.
    Mr. Souder. Do either of you have any additional things you 
would like to add about the strengths or weaknesses of the 
program? You will probably be the only witnesses to this 
committee and the full committee as far as what things we might 
want to do in the reauthorization, do you have any suggestions?
    Chief Ron Burns. I would just suggest, in my perspective, 
from a local law enforcement agency in a metropolitan area, and 
that would be to continue pushing the envelope looking for new 
technologies, and continually offering these products to local 
law enforcement agencies or metropolitan task forces in terms 
of drug interdiction and terrorism. I think this has just been 
a tremendous success for us, and I don't know how we could 
actually operate it without it effectively.
    Mr. Modafferi. I would like to make a point; I made it in 
my oral statement and my written statement. We are generalists 
at our level, at local law enforcement; we handle not only 
narcotics, but we handle everything from organized crime to 
terrorism. And it is important that the committee realize that 
at our level the equipment that is being used is used not only 
in drug fighting, but also in terrorism. I mentioned our case 
with Kennedy Airport.
    And there are different things that are available through 
CTAC, night vision equipment, hidden compartment detectors, 
digital wiretap systems, satellite-based trackers, radio 
interoperability systems. All of those are vitally important 
not only to the drug arena, but also to terrorism, and I think 
when you get to our level, the very local level of law 
enforcement, CTAC has to continue acting the way it is acting 
in supporting local law enforcement because we do share our 
equipment and we do make it available.
    The other thing that I mentioned in my statement is not a 
CTAC-related issue, but it is one very dear to my heart, and it 
is about the communications industry acting like we are profit 
centers; and I wish at someplace in Congress they would address 
that issue, because we may have the equipment, but with what we 
are being charged by the phone companies, we may be soon unable 
to use it.
    Thank you.
    Mr. Souder. You mean rates, basically?
    Mr. Modafferi. Yes, the things they charge us to hook up.
    Mr. Souder. I would like to pursue two other things here. 
We are getting ready to vote. I know you have both come a long 
way, but you heard the earlier discussions that we had on 
HIDTAs. Presumably both of you have seen and had interactions 
in that. Do either of you have anything you would like to add 
on the record as far as the HIDTA debates?
    Chief Ron Burns. In our area, we operate a task force, a 
drug task force that is made up of several city agencies, 
county agencies, and HIDTA has been very supportive of that 
effort, helps fund that effort. And, in addition, from that 
task force we assign an officer to the local DEA office, so we 
work very closely with DEA. And it seems to tie the Federal 
enforcement with our local enforcement very nicely, and, again, 
HIDTA has been very cooperative and very supportive in funding 
our task force, our local task force.
    So I guess I am not talking about just one singular agency, 
but a multitude of agencies working a larger geographic area, 
and it has worked out very well.
    Mr. Modafferi. I am in the New York metropolitan area, and 
we are very involved with the New York HIDTA. The New York 
HIDTA, over the years, has been tremendously successful, and 
especially since September 11. We have, in Rockland County, in 
Westchester County, we have set up our own regional 
intelligence centers that are separate and distinct from the 
main HIDTA center in downtown Manhattan. The New York State 
Police are now setting up a regional intelligence center in 
Upstate New York. And without New York HIDTA, we wouldn't be 
able to have the investigative support that we have in the New 
York metropolitan area and throughout New York State, so it has 
been a tremendous success.
    And I have heard about the changes that are being 
considered, but I would hope that, especially in an area like 
New York, it would remain pretty much the way it is going.
    Mr. Souder. Well, they have called a vote. I guarantee this 
will be my last question.
    In particular, Mr. Modafferi, I wanted you to see if you 
have any thoughts on this. It is somewhat related to the topic 
at hand today, but they have done such a good job at ONDCP in 
implementing this program that one of the questions are is in 
the Department of Homeland Security should we have a similar 
type of an outreach? You have raised the question of multi-use 
of the equipment; in other words, I don't want to see this 
program changed because it enables us to particularly have 
things that are of particular use in narcotics, and to somewhat 
not lose focus by blending and having Homeland Security squash 
the narcotics effort in this area as well because it is like a 
1,000 pound gorilla versus a 100 pound gorilla in terms of 
Washington spending right now.
    On the other hand, were we to set up some kind of a 
program, clearly a lot of the equipment would be similar, 
because, just like you said, you clearly, in the smuggling 
ring, I thought you had a great comment in your testimony about 
with just family connections it is very hard to use undercover 
agents, and you need the technology. That would be true of 
terrorism and homeland security type systems as well.
    And I just wondered if you had any thoughts of if we set up 
a similar type system for local responders, how we would deal 
with the overlaps.
    Mr. Modafferi. First off, I don't think you should set up 
something similar. That is my opinion. I think you should just 
go with what works.
    Mr. Souder. Let me tell you what is somewhat behind it. I 
and others are seeing potentially, and this is heresy in some 
corners, a potential humongous pork barrel project here in 
homeland security, where everybody is coming to us for all 
kinds of stuff, and we are going to repeat what you said about 
Maine 1,000 times over. People are going to get equipment that 
they don't know how to use, they haven't gone through training, 
and unless we have some kind of an orderly method to distribute 
the responder equipment, we are going to drown in dollars that 
are ineffectively used, then the criticism is going to come 
back you wasted all this money in homeland security, you 
diverted anti-drug resources, other crime resources into 
homeland security, and you didn't know your head from a hole in 
the ground.
    That is what is kind of behind how do we control the 
technology, much like what you have done such a good job of in 
narcotics.
    Mr. Modafferi. Well, I think Chief Burns would agree with 
me, that the panel before us was comprised of major cities and 
large States. We are from the local level and we do work 
together and we are very generalists. I think the CTAC program 
has been very effective. I don't know how you are going to work 
this out, because the equipment has to get out there, but you 
should at least replicate CTAC's approach.
    But you have to realize that when you are supplying 
equipment to the local level, it is incumbent upon us to work 
together. Our drug task force is co-located in the same 
building as our intelligence unit. If the drug people arrest 
somebody who knows something about terrorism or murders or 
something, they tell the intelligence unit and it gets out. So 
when you do replicate this thing, you really have to have 
regional experts that are considering that an eight-man police 
department really doesn't need that, or the 40,000-man New York 
City Police Department needs 12 of these. You know, it 
basically comes down to local level to common sense, and I 
don't think that a big bureaucratic shuffle in Washington can 
address it as effectively as CTAC has.
    Mr. Souder. Thank you very much.
    Do you have anything to add, Mr. Burns, to that?
    Chief Ron Burns. I was just going to say why reinvent the 
wheel when there is a mechanism already in place. Very 
effective.
    Mr. Souder. A smile came to my face, it is because the 
scale of the way we do things in Washington, and as a practical 
matter, we would certainly try to replicate the process, but 
you have to be very careful you are not swallowed up by a huge 
department that is big right now.
    But I definitely agree if a process is working, that is the 
process we ought to look at replicating, how you get this local 
community input into making that kind of decision, particularly 
as it gets to smaller counties, because unlike a statement was 
made in homeland security and everybody seems to be uniting, we 
are watching the counties and the cities fight over every 
dollar right now, and we are actually seeing more turf battles 
right now in homeland security than we are seeing in narcotics, 
and it is really scary because the money is so huge; it is much 
like the way government works. If we say narcotics is the big 
issue, everybody repositions their departments around 
narcotics; if we say it is missing children, we reposition 
around missing children; if it is homeland security, we 
reposition all the grant requests around that.
    And we really need to both watch to make sure that your 
efforts in the drug enforcement areas are still there and, at 
the same time, that we are as efficient in these new 
departments.
    So thank you very much for your testimony. Thanks for 
coming a long distance for the hearing today.
    And with that, the subcommittee hearing stands adjourned.
    [Whereupon, at 1:13 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9455.042

[GRAPHIC] [TIFF OMITTED] T9455.043

[GRAPHIC] [TIFF OMITTED] T9455.044

[GRAPHIC] [TIFF OMITTED] T9455.045

[GRAPHIC] [TIFF OMITTED] T9455.046

[GRAPHIC] [TIFF OMITTED] T9455.047

[GRAPHIC] [TIFF OMITTED] T9455.048

[GRAPHIC] [TIFF OMITTED] T9455.049

[GRAPHIC] [TIFF OMITTED] T9455.050

[GRAPHIC] [TIFF OMITTED] T9455.051

[GRAPHIC] [TIFF OMITTED] T9455.052

[GRAPHIC] [TIFF OMITTED] T9455.053

[GRAPHIC] [TIFF OMITTED] T9455.054

[GRAPHIC] [TIFF OMITTED] T9455.055

[GRAPHIC] [TIFF OMITTED] T9455.056


</pre></body></html>
